No. 20In the

Supreme Court of the United States
BRIAN SULLIVAN, et al.,
Petitioners,
v.
NASSAU COUNTY INTERIM FINANCE
AUTHORITY, et al.,
Respondents.
On Petition for a Writ of Certiorari to the United
States Court of A ppeals for the Second Circuit

PETITION FOR A WRIT OF CERTIORARI
Koehler & Isaacs LLP
61 Broadway, 25th Floor
New York, NY 10006
(212) 551-1331
A aron E. K aplan
Civil Service Employees
A ssociation, Inc., Local 1000,
A fscme AFL-CIO
Box 7125, Capitol Station
143 Washington Avenue
Albany, NY 122224
(518) 257-1443

A lan M. Klinger
Counsel of Record
Shira A. Scheindlin
David J. K ahne
Stroock & Stroock
& Lavan LLP
180 Maiden Lane
New York, NY 10038
(212) 806-5400
aklinger@stroock.com

Steven Losquadro
649 Route 25A, Suite 4
Rocky Point, NY 11778
(631) 744-9040
Counsel for Petitioners

299421

i
QUESTION PRESENTED
In 2011, a New York State-created oversight authority,
the Nassau County Interim Finance Authority (“NIFA”),
along with Nassau County (the “County”), enacted a
wage freeze resolution that suspended the contractual
rights of some 2,400 police officers, 7,000 civil servants
and 750 corrections officers in Nassau County. After
nine years of litigation, the Second Circuit, applying the
Contract Clause, agreed that the wage freeze operated
as a substantial impairment of contractual rights and
that the measure was entitled to “less deference” review
because the government had impaired its own contracts.
Yet, despite agreeing to apply a more stringent standard,
the Circuit nonetheless summarily deferred to NIFA’s and
the County’s judgment that they had “no other discernible
options” short of freezing wages, without analyzing
the budgetary situation in Nassau County and without
scrutinizing whether the wage freeze was in fact imposed
as an emergency and “last resort” measure as required by
governing Supreme Court and Circuit Court precedent.
The questions presented are:
(1) Whether the Court should re-examine the
“reasonable and necessary” test, applied under a
“less deferential” standard, when a State impairs
its own contractual obligations, implicating the
Contract Clause of the U.S. Constitution?
(2) When a State impairs its own contractual
obligations, should it bear the burden of
establishing that the impairment was “reasonable
and necessary” under the circumstances?

ii
PARTIES TO THE PROCEEDING
The following Petitioners were plaintiffs-appellants
in the Second Circuit:
Brian Sullivan, as President of the Nassau County
Sheriff’s Correction Officers Benevolent Assoication,
James Carver, as President of the Nassau County Police
Benevolent Assoication, Gary Learned, as President
of the Superior Officers Association of Nassau County,
Thomas R. Willgigg, as President of the Nassau County
Police Department Detectives’ Association, Inc., Jerry
Laricchuita, as Local President of CSEA Nassau
County Local 830, Danny Donohue, as President of
the Civil Service Employees Association, Inc. Local
1000, AFSCME, AFL-CIO, Civil Service Employees
Association, Local 1000 AFSCME, AFL-CIO.
The following Respondents were defendants-appellees
in the Second Circuit:
Nassau County Interim Finance Authority, Ronald
A. Stack, as Chairman and Director of the Nassau
County Interim Finance Authority, George J. Marlin,
Leonard D. Steinman, Thomas W. Stokes, Robert A. Wild,
Christopher P. Write, as Directors of the Nassau County
Interim Finance Authority, Edward Mangano, in his
official capacity as County Executive of Nassau County,
George Maragaos, in his official capacity as Nassau county
Comptroller.

iii
STATEMENT OF RELATED CASES
The related cases to this proceeding are:
• Carver v. Nassau County Interim Finance
Authority, No. CV 11-1614, U.S. District Court
for the Eastern District of New York. Judgment
entered April 27, 2018.
• Donahue v. Nassau County Interim Finance
Authority, No. CV 11-900, U.S. District Court
for the Eastern District of New York. Judgment
entered April 27, 2018.
• Laricchiuta v. Nassau County Interim Finance
Authority, No. 11-2743, U.S. District Court for the
Eastern District of New York. Judgment entered
April 27, 2018.
• Larricchiuta v. Nassau County Interim Finance
Authority, No. 18-1634, U.S. Court of Appeals for
the Second Circuit. Judgment entered May 13,
2020.
• Carver v. Nassau County Interim Finance
Authority, No. 18-1606, U.S. Court of Appeals for
the Second Circuit. Judgment entered May 13,
2020.
• Sullivan v. Nassau County Interim Finance
Authority, 18-1587, U.S. Court of Appeals for the
Second Circuit. Judgment entered May 13, 2020.

iv
TABLE OF CONTENTS
Page
QUESTION PRESENTED . . . . . . . . . . . . . . . . . . . . . . . . i
PARTIES TO THE PROCEEDING  . . . . . . . . . . . . . . . ii
STATEMENT OF RELATED CASES . . . . . . . . . . . .  iii
TABLE OF CONTENTS . . . . . . . . . . . . . . . . . . . . . . . . . iv
TABLE OF APPENDICES . . . . . . . . . . . . . . . . . . . . . . . vi
TABLE OF CITED AUTHORITIES . . . . . . . . . . . . . . vii
OPINIONS BELOW . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1
STATEMENT OF JURISDICTION  . . . . . . . . . . . . . . . 1
CONSTITUTIONAL PROVISIONS INVOLVED . . . . 1
STATEMENT OF THE CASE . . . . . . . . . . . . . . . . . . . . 2
I.

Introduction  . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 2

II. Facts and Proceedings Below . . . . . . . . . . . . . . . . 6
A. Factual Background  . . . . . . . . . . . . . . . . . . . 6
B. Procedural History  . . . . . . . . . . . . . . . . . . . . 9
C. The Decision Below . . . . . . . . . . . . . . . . . . . 12

v
Table of Contents
Page
REASONS FOR GRANTING THE WRIT . . . . . . . . . 14
1.

This Case Is an Ideal Vehicle to Re-Examine
the “Reasonable and Necessary” Test  . . . . . . . 19
A. The “Reasonable and Necessary”
Test Should Be Re-examined and
Modified . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 19
B. This Case Illustrates the Unworkability
of the “Reasonable and Necessary”
Standard  . . . . . . . . . . . . . . . . . . . . . . . . . . . . 24

2.

The Court Should Resolve the Circuit Split
on the Allocation of Burden in Contract
Clause Cases  . . . . . . . . . . . . . . . . . . . . . . . . . . . . 30

CONCLUSION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 35

vi
TABLE OF APPENDICES
Page
Appendix A — opinion of the united
states court of appeals FOR THE
SECOND CIRCUIT, DATED MAY 13, 2020 . . . . . 1a
Appendix B — MEMORANDUM AND ORDER
of the united states DISTRICT COURT
FOR THE EASTERN DISTRICT OF NEW
YORK, DATED AUGUST 8, 2018 . . . . . . . . . . . . . . 34a
Appendix C — MEMORANDUM AND ORDER
of the UNITED STATES DISTRICT
COURT FOR THE EASTERN DISTRICT OF
NEW YORK, FILED April 26, 2018  . . . . . . . . . 42a
Appendix D — DENIAL OF REHEARING
of the U N I T ED S TAT E S C OU RT
OF A PPE A LS FOR T H E SEC ON D
CIRCUIT, DATED MAY 29, 2020  . . . . . . . . . . . . . 65a

vii
TABLE OF CITED AUTHORITIES
Page
Cases
Allied Structural Steel Co. v. Spannaus,
438 U.S. 234 (1978) . . . . . . . . . . . . . . . . . . . . . . . . . 5, 21
Balt. Teachers Union of Am. Fed’n of Teachers
Local 340, AFL-CIO v. Mayor & City of Balt.,
6 F.3d 1012 (4th Cir. 1993)  . . . . . . . . . . . . . . . . . . . . . 22
Buffalo Teachers Fed’n v. Tobe,
464 F.3d 362 (2d Cir. 2006) . . . . . . . . . . . . . . . . . passim
Carver v. NIFA,
142 A.D.3d 1003 (2d Dep’t 2016)  . . . . . . . . . . . . . . . . 11
Carver v. NIFA,
730 F.3d 150 (2d Cir. 2013) . . . . . . . . . . . . . . . . . . . . . 11
Carver v. NIFA,
No. 602947/2013, 2014 WL 12585634
(N.Y. Sup. Ct. Nassau Cnty. Mar. 11, 2014)  . . . . . . . 11
Chicago Bd. of Realtors, Inc. v. City of Chicago,
819 F.2d 732 (7th Cir. 1987) . . . . . . . . . . . . . .  17, 21, 22
City of El Paso v. Simmons,
379 U.S. 497 (1965)  . . . . . . . . . . . . . . . . . . . . . . . .  19-20
Cnty. of Nassau v. NIFA,
33 Misc. 3d 227 (N.Y. Sup. Ct. Nassau Cnty. 2011) . . 8

viii
Cited Authorities
Page
Donohue v. Paterson,
715 F. Supp. 2d 306 (N.D.N.Y. 2010) . . . . . . . . . . 33, 34
Energy Rsvrs. Grp., Inc. v.
Kansas Power & Light Co.,
459 U.S. 400 (1983) . . . . . . . . . . . . . . . . . . . . . . . . . 2, 15
Home Bldg. & Loan Ass’n v. Blaisdell,
290 U.S. 398 (1934) . . . . . . . . . . . . . . . . . . . . . . 3, 20, 21
In re Seltzer,
104 F.3d 234 (9th Cir. 1996) . . . . . . . . . . . . . . . . . . . . 32
Keystone Bituminous Coal Ass’n v.
DeBenedictis,
480 U.S. 470 (1987)  . . . . . . . . . . . . . . . . . . . . . . . . . . . 20
S. Cal. Gas Co. v. City of Santa Ana,
336 F.3d 885 (9th Cir. 2003) . . . . . . . . . . . . . . . . . . . . 23
Six Clinics Holding Corp., II v.
Cafcomp Sys., Inc.,
119 F.3d 393 (6th Cir. 1997) . . . . . . . . . . . . . . . . . . . . 29
Sturges v. Crowninshield,
17 U.S. 122 (1819) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 20
Sullivan v. NIFA,
959 F.3d 54 (2d Cir. 2020) . . . . . . . . . . . . . . . . . . passim

ix
Cited Authorities
Page
Sveen v. Melin,
138 S. Ct. 1815 (2018)  . . . . . . . . . . . . . . . . . . . . . passim
Toledo Area AFL-CIO Council v. Pizza,
154 F.3d 307 (6th Cir. 1998) . . . . . . . . . . . . . . . . . . . . 33
U.S. Trust Co. of New York v. New Jersey,
431 U.S. 1 (1977)  . . . . . . . . . . . . . . . . . . . . . . . . . passim
United Auto., Aerospace, Agric. Implement
Workers of Am. Int’l Union v. Fortuño,
633 F.3d 37 (1st Cir. 2011)  . . . . . . . . . . . . 18, 23, 31, 32
Univ. of Haw. Pro. Assembly v. Cayetano,
183 F.3d 1096 (9th Cir. 1999) . . . . . . . . . . . . . . . . 32, 33
Welch v. Brown,
551 F. App’x 804 (6th Cir. 2014) . . . . . . . . . . . . . . . . . 29
Statutes and Other Authorities
U.S. Const. art. I  . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .  17
U.S. Const. art. I, § 10 cl. 1 . . . . . . . . . . . . . . . . . . . . . . . . 1
28 U.S.C. § 1254(1) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1
Douglas W. Kmiec & John O. McGinnis, The Contract
Clause: A Return to the Original Understanding,
14 Hastings Const. L.Q. 525 (1987)  . . . . . . . . 3, 15, 20

x
Cited Authorities
Page
James W. Ely, Jr., The Contract Clause: A
Constitutional History, Univ. Press of Kansas,
2016 . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 20
Michael B. Rappaport, Note, A Procedural
Approach to the Contract Clause, 93 Yale
	L.J. 918 (1984) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 24
Michael Cataldo, Note, Revival or Revolution: U.S.
Trust’s Role in the Contracts Clause Circuit
Split, 87 St. John’s L. Rev. 1145 (2013) . . . . . . . . . . . 24
Richard A. Epstein, Toward a Revitalization of
the Contract Clause, 51 U. Chi. L. Rev. 703
(1984) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 3, 24
The Federalist No. 44  . . . . . . . . . . . . . . . . . . . . . . . . . . 19

1
Petitioners respectfully petition for a writ of certiorari
to review the judgment of the Second Circuit Court of
Appeals in this case.
OPINIONS BELOW
The opinion of the Second Circuit under review is
published at 959 F.3d 54. (App. 1a-33a.) The district court’s
opinion is unpublished, but available on Westlaw at 2018
WL 1970740. (App. 42a-64a.)
Prior decisions in this litigation decided on statutory
grounds can be found at 923 F. Supp. 2d 423 (E.D.N.Y.
2013), 730 F.3d 150 (2d Cir. 2013), 2014 WL 12585634 (N.Y.
Sup. Ct. Nassau Cnty. Mar. 11, 2014), and 142 A.D.3d 1003
(2d Dep’t 2016).
STATEMENT OF JURISDICTION
The Second Circuit Court of Appeals entered
judgment on May 29, 2020. By order dated March 13, 2020,
this Court extended the dealine to file any petition for a
writ of certiorari by 150 days from the date judgment or
order denying a timely petition for rehearing. This Court
has jurisdiction under 28 U.S.C. § 1254(1).
CONSTITUTIONAL PROVISIONS INVOLVED
The Contract Clause provides: “No State shall…pass
any…Law impairing the Obligation of Contracts.” U.S.
Const. art. I, § 10 cl. 1.

2
STATEMENT OF THE CASE
I.

Introduction

The Contract Clause ensures that a municipality
cannot avoid its contractual obligations even when it
experiences financial hardship. When private contracts are
at issue, courts ordinarily “defer to legislative judgment
as to the necessity and reasonableness of a particular
measure.” Energy Rsvrs. Grp., Inc. v. Kansas Power &
Light Co., 459 U.S. 400, 413 (1983). However, this Court
has long recognized that the government is afforded “less
deference” when it impairs its own contracts. U.S. Trust
Co. of New York v. New Jersey, 431 U.S. 1, 26 (1977) (public
contracts stand on different footing because “the State’s
self-interest is at stake”). Thus, instead of “defer[ring] to
legislative judgment,” courts conduct a more searching
review, and it must be shown that the government did not
(1) “consider impairing the…contracts on a par with other
policy alternatives” or (2) “impose a drastic impairment
when an evident and more moderate course would serve
its purpose equally well” nor (3) act unreasonably “in light
of the surrounding circumstances.” Id. at 23, 30-31.
In the Second Circuit’s leading Contract Clause
decision, Buffalo Teachers Fed’n v. Tobe, 464 F.3d 362, 368
(2d Cir. 2006), the court decided that this “less deferential”
test – when viewed alongside a financial control board
enactment providing that a wage freeze could only be
imposed when “essential” to the city’s budget – meant
that a wage freeze could only be imposed as a “last
resort” measure. The phrases “essential” and “last resort”
square with the narrow exception to the Contract Clause’s
prohibition in the limited and extreme circumstances
when it conflicts with a State’s legitimate exercise of its

3
police power. See Home Bldg. & Loan Ass’n v. Blaisdell,
290 U.S. 398 (1934) (“Blaisdell”).
Yet, as the dissent to this Court’s recent decision in
Sveen v. Melin, 138 S. Ct. 1815, 1827 (2018) (Gorsuch, J,
dissenting) noted, the balancing test of modern Contract
Clause jurisprudence, as first articulated in U.S. Trust
and as applied by the Circuit Courts since, has eroded
into a largely discretionary determination by courts,
unmoored from a finding of true fiscal emergency. The
“police power exception is so broadly construed under
current law that it engulfs the entire clause.” Richard A.
Epstein, Toward a Revitalization of the Contract Clause,
51 U. Chi. L. Rev. 703, 750 (1984). The result is that the
“scrutiny applied to state retrospective legislation is too
lenient,” and the current Contract Clause test, while
interpreting a provision designed to provide certainty to
contracting parties, “maximizes the unpredictability of its
application.” Douglas W. Kmiec & John O. McGinnis, The
Contract Clause: A Return to the Original Understanding,
14 Hastings Const. L.Q. 525, 526, 559 (1987). The authors
of this article note that:
the present Court’s jurisprudence is at odds
w ith the Framers’ interest in providing
certainty to those who enter into contracts,
because in evaluating the constitutionality of
an impairment the Court has adopted widely
differing standards of review and balanced the
extent of the impairment against the policy that
the state seeks to advance. Based on an ad hoc
policy calculus, the Court’s decisions are largely
unpredictable.
Id. at 545.

4
This case illustrates how in practice the threepronged “less deferential” Contract Clause standard is
too lenient and unpredictable. It is emblematic of how
courts are typically unwilling to wade into matters of
municipal finance, turning the more “searching inquiry”
of policy alternatives or more moderate courses into a
superficial and deferential review. Here, NIFA and the
County chose to freeze wages not as a “last resort” or
because they had considered and exhausted other more
moderate courses, but because it was politically expedient
to do so and, as the Second Circuit recognized, alternative
proposals to cure its budgetary woes were “unpopular in
the news media.” Sullivan v. NIFA, 959 F.3d 54, 67 (2d
Cir. 2020) (App. 27a.) Despite correctly deciding it should
apply a more exacting level of review to the wage freeze,
the Second Circuit devoted but a few short paragraphs
to the lengthy record of policy alternatives and potential
moderate courses available that were revealed through
extended discovery.
Indeed, the court of appeals wrongly determined
that its “job” under the “reasonable and necessary”
prong was not to conduct a searching review, but “simply
to determine whether the wage freeze was imposed in
order to renege on a contract (to get out of a bad deal)
or as a governmental action intended to serve the public
good, as the government saw it.” Id. at 69 (App. 31a.) It
chose to focus on whether the measure was “reasonable,”
rather than whether it was truly “necessary” under the
circumstances.
That cannot be the stringent review that this Court
mandates and the more rigorous “necessary” component
cannot be read out of the test. A government should be

5
required to do more than simply mouth the words “public
interest,” or point to a municipal budget deficit, or, as
here, summarily conclude that it had “no other options”
but to unilaterally abrogate its contractual obligations.
It should, at the very least, be required to demonstrate
a record of budgetary alternatives considered and tried
short of impairing contracts before a breach of contractual
obligations is permitted. If, as this Court stated, “the
Contract Clause is to retain any meaning at all…it must
be understood to impose some limits upon the power of a
State to abridge existing contractual relationships, even
in the exercise of its otherwise legitimate police power.”
Allied Structural Steel Co. v. Spannaus, 438 U.S. 234,
242 (1978).
This case presents the Court with an opportunity to
rebalance the Contract Clause test and to clarify how
courts should analyze the constitutionality of a State’s
impairment of its own contracts. The majority opinion
in Sveen noted that on the facts of the case, it “ha[d]
no occasion to address” the contention that the Court
abandon its Contract Clause test “to whatever extent it
departs from the Clause’s original meaning and earliest
applications.” 138 S. Ct. at 1822 n.3. It has that occasion
here.
Even if the Court decides not to modify the test,
the case also provides the Court with an opportunity to
resolve a Circuit split as to how the burden of proof should
be allocated in demonstrating whether an impairment is
“reasonable and necessary” under the circumstances.

6
II. Facts and Proceedings Below
A.

Factual Background

In 2000, the New York State Legislature enacted the
NIFA Act (the “Act”) which created NIFA to assist Nassau
County in avoiding insolvency and overseeing the County’s
finances. (JA-150-151, ¶¶ 11-13.)1 At the time of enactment,
the County’s bond ratings were one level above junk and
it was facing a deficit of over $100 million. (JA-202-203,
¶ 131.) Under the Act, the State directly subsidized the
County by providing it with $100 million in State funds
through 2004. (JA-203, ¶ 132.)
Modeled after the New York Financial Emergency
Act of 1975, the Act provides for two distinct monitoring
periods during NIFA’s existence: (1) the “interim
finance period” and (2) a subsequent period with more
limited monitoring powers and responsibilities. (JA-203,
¶ 134.) The Act also gives NIFA the power to impose a
“control period” upon its determination that there exists
a substantial likelihood of an operating funds deficit in
the budget of 1% or more. (JA-153, ¶ 21.) During such a
period NIFA has the discretion to: (i) direct the County
to prepare a revised financial plan in a form acceptable to
NIFA; (ii) modify the revised financial plan; (iii) approve/
disapprove contracts; (iv) approve/disapprove borrowing;
and (v) conduct operational/financial audits of the County
government to identify opportunities for savings. (JA-204,
¶ 138.) The Act contemplated that, over time, the County
would wean itself from the State’s financial assistance.
(JA-203, ¶ 133.)
1. Citations to “JA” refer to Carver Joint Appendix, ECF
Nos. 99-103 and “SPA“ refer to Special Appendix.

7
The Act also authorizes NIFA to enact a wage freeze
under extreme circumstances. During a control period,
upon a finding that a wage freeze is “essential to the
adoption or maintenance of a county budget or a financial
plan,” NIFA “after enactment of a resolution so finding”
may declare a “fiscal crisis,” and upon such a declaration
may freeze municipal wages. (JA-243) Prior to 2011, NIFA
had never exercised its control period or wage freeze
power in its eleven years of existence, not even in 2000
when the County’s overall fiscal health was far worse than
the financial circumstances surrounding the wage freeze.
(JA-220, ¶ 229.)
A new Nassau County Executive took office on January
1, 2010, having pledged that he would not raise taxes and
would repeal certain existing taxes, including the Nassau
County Residential Energy Tax (the “Home Energy
Tax”). (JA-204-206, ¶¶ 142-145, 150.) As his very first
act in office he signed a bill repealing the Home Energy
Tax, costing the County approximately $19.8 million of
revenue in 2010, an estimated $41.4 million for 2011, $43
million for 2012 and $44.6 million for 2013. (JA-205, ¶ 146.)
In addition, the County Executive chose not to impose
a previously planned 3.9% property tax increase in the
County’s 2010 budget. Id. The elimination of the planned
property tax increase cost the County approximately $32
million of recurring revenue each year for 2011, 2012 and
2013. (JA-206, ¶ 151.)
By way of comparison, the wage freeze challenged
here saved the County approximately $10 million in 2011.
(JA-212, ¶ 184.) In sum, then, the County created its own
financial predicament.

8
In early January 2010, recognizing the budgetary
“imbalance” that would result from these decisions, NIFA
inquired of the County how it intended to make up for
the lost revenue. (JA-207, ¶ 157.) Over the next several
months, the County made numerous efforts to persuade
NIFA that its budget proposals for 2011 would lead to a
balanced budget, but NIFA rejected those projections as
unrealistic. (JA-179, ¶ 79.)
Despite Nassau County being among the wealthiest
counties in the country, boasting a median household
income ninth among all counties, (JA-220, ¶ 228), on
January 26, 2011, NIFA enacted a resolution imposing
a control period. (JA-209, ¶ 169.) NIFA determined this
action was warranted because of a substantial likelihood
that in 2011 the County would imminently incur an
operating fund deficit of 1% or more. Id. Shortly thereafter,
the County commenced a proceeding in State Supreme
Court, Nassau County, challenging NIFA’s authority to
impose a control period. The County argued that, even if
it had the authority, NIFA’s imposition of a control period
was arbitrary and capricious because it was insisting on
new accounting standards for the first time. The County
Executive called the invocation of a control period a
“political attack.” (JA 431-32.) On March 11, 2011, the
court held that NIFA had the authority to impose a control
period while its bonds remained outstanding pursuant to
subsection 3669(1) of the Act. Cnty. of Nassau v. NIFA,
33 Misc. 3d 227, 247-48 (N.Y. Sup. Ct. Nassau Cnty. 2011).
Following this decision, the County withdrew its lawsuit
before briefing the issue of whether the invocation of the
control period was an improper exercise of NIFA’s power.
(JA-182 ¶ 88.)

9
Less than a week later, the County Executive reversed
his prior position that the budget was balanced, and
expressly requested that NIFA take action to freeze
wages by April 1, 2011. (JA-210, ¶ 174.) NIFA responded
by passing two wage freeze resolutions on March 24, 2011,
Resolution Nos. 11-303 and 11-304 (hereinafter the “wage
freeze”). (JA-276-298.)
After the wage freeze was implemented, the County
took numerous cost saving and revenue generating
measures to address its budgetary gap. These measures
– including exercising its statutory authority to retain a
consultant, Grant Thornton LLP, to conduct an operational
review of County’s finances – could and should have been
taken prior to resorting to a wage freeze. The resulting
report from Grant Thornton, the “Fiscal Sustainability
Initiative,” identified between $251 and $319 million of
potential budgetary savings. (JA-213-214, ¶¶ 189, 192, 198.)
B. Procedural History
Petitioners brought this action challenging the
imposition of the wage freeze by NIFA at the request of the
County, on the grounds that the wage freeze substantially
impaired Petitioners’ contractually bargained for rights
in violation of the Contract Clause of the United States
Constitution.
Petitioners sought a temporary restraining order,
which the district court denied. But the court permitted
discovery prior to conducting a hearing on the request
for a preliminary injunction. (JA -7.) On April 22, 2011,
Petitioners filed an Amended Complaint, invoking federal
supplemental jurisdiction to assert two additional state

10
law claims, challenging the validity of the wage freeze
under the terms of the NIFA Act. (JA-47.)
The parties engaged in eighteen months of discovery,
including depositions, third-party discovery and the
exchange of thousands of documents –all targeted
at identifying what, if any, cost-saving and revenueenhancing alternative measures the County attempted
before imposing a wage freeze and whether the freeze was
considered “on par” with other policy options. At the close
of discovery, all parties moved for summary judgment.
Petitioners contended that NIFA and the County
were unable to satisfy the multi-part test for establishing
that the wage freeze did not impermissibly impinge on
individual contract rights. Petitioners argued that unlike
the dire economic situations of New York City in the 1970s
and the City of Buffalo in 2004 – where municipalities in
New York were forced to impair their own contracts as a
fiscal tool of last resort – NIFA and the County treated
the wage freeze just as it would any other budgetary
tool, violating Petitioners’ contractually bargained for
rights. (JA-14, Dkt JA-14, Dkt No. 78 pp. 37-60.) Under
Second Circuit case law, wage freezes were imposed and
upheld in New York City and Buffalo during times of
increasing poverty, unemployment and only after trying
other alternatives (such as consolidating departments,
implementing a hiring freeze and raising taxes). By
contrast, in Nassau County, one of the wealthiest counties
in the country, a repeal of taxes triggering a control
period was the first step, and a wage freeze was the
second step, with budgetary alternatives being explored
and accomplished only after the imposition of that wage
freeze. Id.

11
The district court issued a Memorandum Opinion
and Order, granting Petitioners summary judgment on
their supplemental state law claim, holding that the Wage
Freeze Resolutions violated subsection 3669(3) of the Act,
and that “the language of Section 3669 unambiguously
limits NIFA’s power to impose a control period wage freeze
to the end of the interim finance period – which period
ended in 2008.” (SPA-10.) The district court determined
that it need not reach the constitutional issue. (SPA-12.)
The Second Circuit vacated and remanded the
district court’s decision on the ground that it should have
declined to exercise supplemental jurisdiction over the
state statutory interpretation claim because the case
presented an “unresolved question of state law” better
suited to be resolved by the New York State courts. See
Carver v. NIFA, 730 F.3d 150 (2d Cir. 2013). The court
did not address whether the Contracts Clause applied to
the wage freeze.
Following that decision, Petitioners commenced
a proceeding in state court raising only the state law
claims, which were dismissed at the trial court level and
affirmed by the appellate court. See Carver v. NIFA, No.
602947/2013, 2014 WL 12585634 (N.Y. Sup. Ct. Nassau
Cnty. Mar. 11, 2014); Carver v. NIFA, 142 A.D.3d 1003
(2d Dep’t 2016).
Having exhausted the state law claims, Petitioners
returned to federal court on the previously briefed
Contract Clause claims. The district court denied
Petitioners’ motion for summary judgment and granted
NIFA’s and the County’s cross-motion. It avoided a
Contract Clause analysis of the wage freeze entirely,

12
ruling instead that the Contract Clause did not apply.
The court reasoned that NIFA’s imposition of a wage
freeze suspending the contract rights of all public sector
employees in Nassau County did not constitute a “law”
or a “new rule,” but was instead a ministerial exercise of
administrative authority delegated to the agency by the
Legislature under the NIFA Act approximately a decade
earlier.
C.

The Decision Below

Petitioners appealed to the Second Circuit, arguing
that the wage freeze was a “legislative” rather than
“administrative” act and that under the “less deferential”
standard, the wage freeze was a substantial impairment
that was neither reasonable nor necessary under
the circumstances. Petitioners argued in the Circuit
that the trial court should make the determination of
“reasonableness” and “necessity” in the first instance,
but provided the court with ample record evidence
demonstrating that the wage freeze was not implemented
as a last resort measure.
The court of appeals assumed that the wage freeze
was “legislative” and then correctly held under the
Contract Clause analysis that: (i) the wage freeze was
a substantial impairment of the Unions’ Collective
Bargaining Agreements; (ii) the Unions could not have
reasonably expected to have their wages frozen; and (iii)
the Unions met their burden of demonstrating that the
decision to impair the Unions’ contracts constituted a
self-serving act entitling NIFA and the County to less
deference within the constitutional analysis. Sullivan,
959 F.3d at 54, 64, 65. (App. 21a, 22a, 27a.) However, the

13
Circuit broke with controlling precedent in its final and
dispositive analysis, concluding – without the benefit of
any district court analysis below – that the wage freeze
was “reasonable and necessary” under the circumstances.
Employing its view of the “less deferential” standard,
the Second Circuit held that the “key to all this” was to
determine whether the wage freeze was imposed “in
order to renege on a contract (to get out of a bad deal)
or as a governmental action intended to serve the public
good…” Id. at 65, 69. (App.31a.) On the question of
“reasonableness,” the court found that the County was
experiencing a significant budget deficit and summarily
concluded that the freeze was reasonable, largely based
on NIFA’s unsupported and incorrect position that there
were “no other discernible options” available short of
freezing wages. Id. at 68 (App. 30a.) On the question of
“necessity” the Circuit quickly dismissed two potential
alternatives – the comprehensive audit of County finances
and refinancing of its debt – finding that the freeze was
necessary to further the County’s and NIFA’s legitimate
public purpose. . Id. at 69. (App. 31a.) None of the litany
of alternatives proffered by Petitioners were analyzed
nor was the County’s or NIFA’s decision-making process
examined.
No one disputed that Nassau County was one of the
wealthiest counties in the country. Nor was it disputed that
upon his election, the County Executive made a political
decision and created an immediate budget deficit by
repealing and rescinding certain taxes without providing
for alternative revenue, triggering the need for the control
period. Nonetheless, the wage freeze was upheld.

14
REASONS FOR GRANTING THE WRIT
Since 1934, the Supreme Court has only once – in
U.S. Trust Co., 431 U.S. 1 – struck down a state law that
interfered with a government contract on Contracts
Clause grounds. While under this Court’s long-standing
precedent “less deference” is required to be afforded to a
state’s decision to impair its own contractual obligations, in
practice “complete deference” is often granted, as courts
rarely second-guess legislative decision-making. The
rubber-stamping of state-sponsored contractual breaches
as “reasonable and necessary” runs afoul of the Court’s
requirement of a more exacting constitutional review
and perverts the intent of the Contract Clause, designed
to protect the sanctity of contract against impairment
by the state. In Sveen, Justice Gorsuch recognized the
chorus of criticism to the exceedingly pliable “reasonable
and necessary” standard that affords nearly unlimited
discretion to courts and suggested the criticisms “deserve
a thoughtful reply, if not in this case then in another.” 138
S. Ct. at 1828 (Gorsuch, J, dissenting).
This Petition presents the opportunity for that
“thoughtful reply,” offering a vehicle to provide needed
clarity in Contract Clause jurisprudence.
The Circuit’s exceedingly lenient application of the
“less deference” standard has far-reaching implications,
particularly in today’s current fiscal climate, where many
states face ballooning budget deficits. If the Contract
Clause is to have any meaning, municipalities and their
agencies cannot be permitted – as NIFA and the County
were here – to abrogate constitutional rights in order to
fulfill campaign promises or resolve political disputes.

15
In the years since U.S. Trust Co., as demonstrated
here, the Contract Clause has provided little protection
when municipalities chose to impair their own contracts,
because courts have emphasized the “reasonableness” of
impairment over its “necessity”. Indeed, emblematic of the
prevalence of an assumed reasonableness review, is the
Court’s most recent Contract Clause opinion, in which the
dissent highlighted the omission of the the “necessary”
component of the test, stating that “[o]ur modern cases
permit a state to ‘substantially impair’ a contractual
obligation in pursuit of ‘a significant and legitimate public
purpose’ so long as the impairment is ‘reasonable’’”
Sveen, 138 S. Ct. at 1828 (Gorsuch, J., dissenting) (quoting
Energy Rsvrs. Grp., Inc. v. Kansas Power & Light Co.,
459 U.S. 400, 411 (1983) (emphasis added)).
The root cause of the lenient application of the
standard lies in its construction. A “reasonableness test
is a fairly relaxed or minimal standard of constitutional
review while formulations employing necessity have been
viewed as calling forth a more exacting standard.” Kmiec
& McGinnis, supra, at 546. These two conflicting methods
of review combined into the same underlying test have
resulted in an “incoherent jurisprudence.” Id. at 547.
The “incoherent jurisprudence” is evident here
as the Circuit viewed its role as determining whether
the impairment was imposed as a government action
“intended to serve the public good.” Sullivan, 959 F.3d
at 69 (App. 31a), rather than deciding whether the freeze
was necessary or essential in a fiscal emergency.
The lenient reasonableness test also leads to
u np r e d i c t a b i l i t y. W i t h t h e p r i m a r y fo c u s o n

16
“reasonableness” – within the balancing test of whether
the impairment with an existing contract is reasonable and
necessary to serve a legitimate public purpose – litigants
cannot predict when a court might defer to legislation
that is neither “reasonable” nor “necessary” because of
a particular policy preference. The result, as recognized
in Sveen, leaves significant uncertainty when contracting
with the government: “[H]ow are the people to know today
whether their lawful contracts will be enforced tomorrow,
or instead undone by a legislative majority with different
sympathies?” 138 S. Ct. at 1827 (Gorsuch, J., dissenting).
Of course uncertainty in contracting was precisely the ill
that the Contract Clause was designed to remedy. U.S.
Trust Co., 431 U.S. at 15 (the Contract Clause was written
to “promot[e] confidence in the stability of contractual
obligations”).
This concern is highly relevant today. Public sector
labor unions, like Petitioners, rely on the sanctity of
contract and would have little incentive to agree to
concessions or other changes in their contracts in
exchange for wage increases if those increases could be
eliminated under a “reasonableness” balancing test that
“invest[s] judges with discretion to choose which contracts
to enforce – a discretion that might be exercised with
an eye to the identity (and popularity) of the parties or
contracts at hand[.]” Sveen, 138 S. Ct. at 1827 (Gorsuch,
J., dissenting).
Fu r ther, the broad and f lex ible standa rd of
reasonableness typically employed “seems hard to square
with the Constitution’s original public meaning.” Id. The
Constitution, as Justice Gorsuch reasoned, “does not speak
of ‘substantial’ impairment[;]” nor does it contemplate

17
analyzing more moderate courses available or other
policy alternatives. Instead, the constitutional provision
“bars ‘any’ impairment” at all.” Id. at 1827 (emphasis
added). The language of the Contract Clause is absolute,
prohibiting states from passing “any … Law impairing
the Obligations of Contracts,” yet courts routinely permit
abrogation of contracts in far from absolutely necessary
circumstances. Even if the Clause does not call for an
absolute bar to impairment, under current case law, it
is far too easy to abrogate its protection. See Chicago
Bd. of Realtors, Inc. v. City of Chicago, 819 F.2d 732, 744
(7th Cir. 1987) (Posner and Easterbrook, J.J. concurring)
(“Imagine what freedom of speech would have come to
mean if the Court had interpreted the First Amendment
– which is no more absolute in its language or clearcut in
its history than the contract clause – as loosely as it now
interprets the contract clause.”).
The current test under U.S. Trust Co. loosely indicates
that the government should not (1) consider impairing
the…contract on par with other policy alternatives or
(2) impose a drastic remedy when an evident and more
moderate alternative would serve its purpose equally
well. 431 U.S. at 30. This test lacks both specificity
and certainty. To “square” the absolute constitutional
language with what is required of litigants, this Court
should require the State to affirmatively establish that
an impairment is “necessary” by providing an evidentiary
record of budgetary alternatives or more moderate policies
considered and tried before impairing its own contracts.
Should the Court decline to modify the current test,
it should at least resolve an existing Circuit split and
clarify the respective burdens in proving a Contract

18
Clause violation. Successful challenges to Contract Clause
impairment are rare not only because courts tend to be
deferential to legislative impairments but also because
the allocation of the burden of proof raises an additional
barrier. In this case, the Second Circuit acknowledged
the nationwide split, and then assumed, without deciding,
that the burden to show whether an impairment is
reasonable and necessary lies with the defendant. Yet,
when it conducted the analysis, the Circuit placed the
burden on plaintiffs, analyzing their proffered budgetary
alternatives to the wage freeze, rather than defendants’
failure to consider or implement alternative policies. As
noted, impairing existing contracts is a “last resort,” not
the first.
Despite the language in U.S. Trust Co. stating that
“the State has failed to demonstrate” the legislation was
necessary, 431 US. at 31 (emphasis added), not all Circuit
Courts have agreed that the U.S. Trust Co. decision
casts the burden on the State and have expressly looked
to the Supreme Court to resolve the issue. As the First
Circuit’s concurring opinion in United Auto., Aerospace,
Agric. Implement Workers of Am. Int’l Union v. Fortuño
(“Fortuño”) explained, “[n]o one short of the Supreme
Court is capable of definitively resolving a problem that
may well have considerable importance in light of the
current financial difficulties.” 633 F.3d 37, 48-49 (1st Cir.
2011). The Court should do so here.
In sum, this Petition should be granted to (1) reexamine and modify the Court’s Contract Clause
jurisprudence, and (2) to resolve the divide among
the circuits as to where the burden of establishing
“reasonableness” and “necessity” lies in Contract Clause

19
litigation. With a clearly articulated test requiring a more
searching analysis, the case should be remanded to the
district court to review the record of budgetary options
short of freezing wages that were available to NIFA and
the County at the time contract rights were impaired.
1. This Case Is an Ideal Vehicle to Re-Examine the
“Reasonable and Necessary” Test
A.

The “Reasonable and Necessary” Test Should
Be Re-examined and Modified

The Second Circuit’s faulty analysis presents the
Court with an opportunity to articulate a more exacting
standard of review. A Supreme Court decision re-setting
the proper Contract Clause analysis will reinvigorate
the provision as it was meant to operate – as a safeguard
against legislation that unilaterally rewrites existing
contracts, particularly the government’s own contracts.
The history of the Contract Clause is well-documented
and has been recently briefed before the Court. See Sveen,
138 S. Ct. 1815. It is referenced here to emphasize the
troubling malleability of the one constitutional provision
that, more than any other, was designed to ensure stability
and predictability in contractual relationships.
In T h e F e de r a l is t No. 4 4 , Ja mes Ma d ison
characterized the Contract Clause as a “constitutional
bulwark in favor of personal security and private rights.”
The Contract Clause was so vital at the country’s founding
that it is “one of the few provisions [explicitly limiting
states’ powers] which the Framers deemed of sufficient
importance to place in the original Constitution.” City of

20
El Paso v. Simmons, 379 U.S. 497, 523 (1965) (Black, J.,
dissenting). It was written and debated during a period
of financial hardship and the Framers believed that
the sanctity of contracts was essential, particularly in
troubled economic times, for it was then that people and
governments would seek “legislative interference” with
their contractual obligations. Blaisdell, 290 U.S. at 454-55
(Sutherland, J., dissenting). “[T]reating existing contracts
as ‘inviolable’ would benefit society by ensuring that all
persons could count on the ability to enforce promises
lawfully made to them – even if they or their agreements
later prove unpopular with some passing majority.” Sveen,
138 S. Ct. at 1827 (Gorsuch, J., dissenting) (citing Sturges
v. Crowninshield, 17 U.S. 122, 206 (1819)). Throughout
the first century of the Court, the Contract Clause was
treated as the categorical prohibition it was written to be
and the Court regularly struck down state legislation. See
Kmiec & McGinnis, supra, at 525, 529–30.
Starting with its decision in Blaisdell, however, the
Court began to carve out a police power exception to
the absolute proscription, holding that the Clause “is
not an absolute one and is not to be read with literal
exactness like a mathematical formula.” Blaisdell, 290
U.S. at 428; see also Keystone Bituminous Coal Ass’n v.
DeBenedictis, 480 U.S. 470, 502 (1987) (“[I]t is well settled
that the prohibition against impairing the obligation of
contracts is not to be read literally.”). The balancing test
first articulated in Blaisdell – whether the legislation
addresses a legitimate end and whether the measure is
reasonable and appropriate to that end – opened the door
to significant encroachment on the sanctity of contract.
James W. Ely, Jr., The Contract Clause: A Constitutional
History, Univ. Press of Kansas, 2016. The existence of an

21
“emergency,” which was necessary for the impairment
to be upheld in Blaisdell, became so “fictionalized” and
watered down that by 1978, the Court found it necessary
to “remind bench and bar that the contract clause was
‘not a dead letter.’” Chicago Bd. of Realtors, Inc., 819 F.2d
at 744 (quoting Allied Structural Steel Co., v. Spannaus,
438 U.S. 234, 241 (1978)).
In U.S. Trust Co., a decision coming after decades of
desuetude, the Court sought to pare back the ability of a
state to use the police power and the “essential attributes
of sovereign power” to impair existing contracts. 431
U.S. at 21. There, the Court applied the Contract Clause
to strike down a New Jersey statute that abrogated
an agreement to which the state was a party. The
Court reasoned that under the reigning balancing test,
which allowed impairing legislation in “appropriate”
circumstances, a state could excuse itself from its own
contractual obligations and abuse its power in taking
that action. Thus, less deference to the State’s action was
appropriate. Id. at 26. Beyond recognizing the need for
“less deference,” the Court held that the determination
of “necessity” could be made by considering whether the
legislation was “essential” – that is, whether a less drastic
modification would have achieved the same purpose. Id.
As the Court expressed, “a state is not completely free to
consider impairing obligations of its own contracts on a par
with other policy alternatives”; nor is it “free to impose a
drastic impairment when an evident and more moderate
course would serve its purposes equally well.” Id. at 30-31.
Yet, in deciding whether a policy option is a “more
moderate course,” and what it means to consider
contractual impairment “on par” with other alternatives,

22
the lower courts have been left with too much discretion
to navigate the difficult task of assessing government
decision-making. Such assessments typically involve
complicated municipal finance or budgetary choices – and
tend to defer to government action. Courts have found
that the Contract Clause does not require them “to sit
as super legislatures,” choosing among various options
and that judges are “ill-equipped even to consider the
evidence that would be relevant to such conflicting policy
alternatives.” Balt. Teachers Union of Am. Fed’n of
Teachers Local 340, AFL-CIO v. Mayor & City of Balt.,
6 F.3d 1012, 1021-22 (4th Cir. 1993). Untethered from the
original constitutional text, the boundaries set by U.S.
Trust Co. have continued to erode, leaving a “defanged”
Contracts Clause. Chicago Bd. of Realtors, 819 F.2d at
744 (“By exploiting the unfortunate ambiguities that
surround the word ‘reasonable’, the Supreme Court has
‘defanged’ the contract clause.”) (Posner and Easterbrook,
J.J., concurring).
Particularly when a municipality or state invokes
the magic words “financial crisis” or “budgetary crisis,”
courts appear unwilling to second-guess a legislative
determination. In practice, rather than engage in objective
budgetary analysis, the determination often amounts to
whether the government’s rationale for the impairment
appears to be pre-textual – or, as here, whether it was
“designed to serve a public good.” See Balt. Teachers
Union, 6 F.3d at 1019 n.10 (“Although the Court has
never specified what it intends by the requirement of a
more searching examination, it appears to mean by this
only that the legislature’s asserted justifications for the
impairment shall not be given the complete deference that
they would otherwise enjoy.”).

23
This imprecise standard and lack of doctrinal guidance
has produced varying levels of deference circuit by circuit.
U.S. Trust Co. provides that “complete deference” to a
legislature is inappropriate in the public contract context,
but did not elucidate what level of deference is appropriate.
The Ninth Circuit, for example, has narrowed the scope
of the “reasonableness” review to whether the problem
addressed existed at the time of the contract. S. Cal. Gas
Co. v. City of Santa Ana, 336 F.3d 885 (9th Cir. 2003).
The First Circuit has held that “less deference” does not
equal “no deference,” and has still accorded significant
deference to the State even under a “less deference”
standard. Fortuño, 633 F.3d at 37.
At the very least, to satisfy constitutional scrutiny, the
contractual impairment must be not only “reasonable,” but
necessary, a word with special constitutional significance.
U.S. Trust Co., 431 U.S. at 54 n.17 (“words like ‘reasonable’
and ‘necessary’ also are fused with special meaning … the
element of necessity traditionally has played a key role
in the most penetrating mode of constitutional review”).
The Court’s use of the word “necessary” suggests that a
court must do more than rely on governmental assertions
of feasibility and instead conduct an independent analysis
to determine whether a contract impairing measure is
truly borne of emergency circumstances and enacted as a
last resort. See id. at 31; Ass’n of Surrogates & Supreme
Court Reporters within the City of New York v. State of
New York, F.2d 766, 773 (2d Cir. 1991) (“if the federal
judiciary’s proper role [in evaluating alternatives] were
as supine as defendants assert it to be, the contract clause
would be a ‘dead letter’”).

24
As commentators have suggested for some time, the
Contract Clause analysis should be re-examined because
courts have not consistently applied the required “less
deferential” review. The constitutional test has produced
confusing and unpredictable decisions by the lower courts
and its application has strayed considerably from the
Framer’s original intent. See, e.g., Michael Cataldo, Note,
Revival or Revolution: U.S. Trust’s Role in the Contracts
Clause Circuit Split, 87 St. John’s L. Rev. 1145 (2013);
Michael B. Rappaport, Note, A Procedural Approach to
the Contract Clause, 93 Yale L.J. 918 (1984); Richard A.
Epstein, supra, 51 U. Chi. L. Rev. 703 (1984).
B. This Case Illustrates the Unworkability of the
“Reasonable and Necessary” Standard
This case illustrates the propensity of courts to
defer to the State in their application of the “reasonable
and necessary” standard. The Second Circuit’s decision
illuminates how far courts have strayed from the once
inviolability of contract and the “bulwark” constitutional
protection of the Contract Clause.
The Circuit should have inquired into whether
emergency circumstances justified the use of the police
power to impair the State’s contracts with its employees
when less drastic alternatives would have sufficed.
Instead, though purporting to conduct a “less deference”
review, the Second Circuit completely eliminated the
“necessary” component of the test, relying solely on its
own idiosyncratic view of reasonableness. See U.S. Trust
Co., 431 U.S. at 29 (reasonableness looks to balance
whether the impairment comports with the public purpose
to be served). The Circuit failed to analyze whether the

25
wage freeze was essential and implemented as a “last
resort.”
On the factual record here, the government considered
contractual impairment not only “on par” with other
policy alternatives, but preferable to other measures. Yet,
the Second Circuit focused on and was influenced by the
amounts of the budget deficits that NIFA and the County
contended were unsolvable, rather than by the efforts
(or lack of effort) taken by the government defendants to
address financial needs. Indeed, before even undertaking
the reasonable and necessary review, the court of appeals
stressed that the County faced a purported 2011 budget
deficit of $176 million, as if the size of the deficit rather
than the hard choices that might have been made to reduce
that deficit, were the subject of the inquiry. Sullivan, 959
F.3d at 67. (App. 28a.)
The court’s reliance on the size of the budget deficit
tracked defendants’ position in their submissions to the
court focusing on the purported severity of the County’s
fiscal problems. Defendants did not demonstrate or
establish a substantial record that alternatives to the wage
freeze were considered or tried. No affidavits of County
officials were submitted detailing any measures pursued
short of a wage freeze. The depositions of the Chairman
of NIFA and the County Executive yielded no evidence
that less drastic measures were seriously explored. (JA433) The County Executive admitted that no one in his
administration conducted any analysis or issued reports of
other available options because when they came into office
they “had very little time” to prepare for the transition
and NIFA stated that resolving the County’s finances
would almost certainly require a contribution from the
labor side of the ledger. (E.g. JA-206, ¶ 153).

26
When analyses were performed, like a Comptroller’s
non-tax revenue study, the County failed to consider it.
(JA-214, ¶ 195). Proposed amendments to the budget from
the legislature, which identified millions in savings, were
ignored. (JA-207-208, ¶ 161). Despite these and other
available options and NIFA’s wide-reaching control over
the County’s finances, NIFA’s Chairman self-servingly
suggested that the wage freeze was “the one thing” NIFA
could do. (JA-424).
The record shows otherwise and demonstrates
that NIFA’s and the County’s actions were designed to
reach a politically expedient result, not to comply with
constitutional strictures. Yet this is precisely what the
Contract Clause was designed to prevent. Probative
of the failure to consider alternatives before impairing
contracts are the host of alternatives contemplated and
implemented after the wage freeze took effect. After
imposing the freeze, the County and NIFA took numerous
revenue-raising and expense-cutting measures to close
the budgetary gap. Among them:
• The County combined the real estate and public
works departments;
• The County consolidated some of its departments;
• The County merged managerial functions of the
health, mental health and youth boards;
• The administration increased certain fees and
fines expected to raise $2.5 million in 2012 and
$12.8 million on a recurring, on-going basis;

27
• The County hired a company to find ways to use
strategic sourcing in procurement, hoping to save
$25 million by realigning some of its contracts;
• The County negotiated voluntary separation
incentive programs with County unions, which
were expected to yield approximately $20 million
dollars;
• NIFA refinanced $313 million of existing debt,
saving the County $30 million in annual interest
costs;
• NIFA allowed the County to continue non-GAAP
compliant borrowing for tax certioraris and
judgments; and
• NIFA commissioned the operational audit by
Grant Thornton which found between $251 and
$319 million of potential savings that could
largely be achieved w ithin twelve months.
(JA-212-217 ¶¶ 188, 189, 199, 200, 203, 207, 214, 216). No
justifiable reason was given by NIFA or the County as
to why these measures were not taken before the wage
freeze was imposed.
Rather than delve into these alternatives and their
potential savings to the County, or determine whether
they were adequately considered before the wage freeze,
or remand to the trial court to do so, the court deferred
to NIFA’s assertions that it had no power to tax and “no
other discernible options to improve the County’s fiscal

28
state.” Sullivan, 959 F.3d at 68 (App. 30a.) It summarily
concluded that all of the proposals that Petitioners
suggested as alternatives were “solely under the County’s
purview and outside of NIFA’s control.” Id.. (App. 28a.)
Of course, NIFA and the County were acting in concert
in implementing the wage freeze, with NIFA exercising
nearly complete control over the County’s finances and
budgeting. Although the court accepted NIFA’s argument
that it could not directly raise taxes or impose fines,
NIFA could have forced County leaders to utilize other
budgetary tools to cure its deficit through its oversight
process rather than impose a wage freeze. See, e.g., Public
Authorities Law § 3669 (a)(ii)-(iv), (d).
Foregoing a close examination of potential alternatives,
the Second Circuit summarily pointed to three proposed
measures in one short paragraph as evidence that other
alternatives were considered: (1) a headcount reduction
of 400 employees through an early retirement program;
(2) a proposed cut of 213 employees through layoffs and
department closures; and (3) a proposed 13 days of unpaid
furloughs for County employees. Id. at 68 (App. 29a.)
The court erroneously stated that these three
measures “came on the heels of, and simultaneously with”
the wage freeze. Id. But the fact is that none of these action
were tried and considered before the wage freeze. And
many more alternatives with far greater savings were
identified in the Grant Thornton report and implemented
after the wage freeze. Still left unanswered in all the
years of this litigation by both the Respondents and the
courts is why Grant Thornton was not retained before
the wage freeze to review County operations. Nothing
prevented the study from being undertaken before the

29
wage freeze, particularly when the need for additional
sources of revenue and savings was identified by NIFA as
early as January 2010. NIFA and the County never made
any attempt to avoid violating constitutionally guaranteed
rights.
The court aknowledged that NIFA could have
commissioned an audit of County operations, but “[did]
not see why NIFA should have delayed taking action until
this was done.” Sullivan, 959 F.3d at 69 (App. 30a-31a.)
The reason, of course, is because the Contract Clause
demands it. At the very least, the case should have been
remanded for judicial fact finding on the “reasonable and
necessary” prong. As noted in the Sixth Circuit Contract
Clause case cited by the Second Circuit in its decision,
Petitioners raised “‘serious, substantial and difficult’
questions with regard to the reasonableness and necessity
of the Defendants’ actions, which render these issues ‘a
fair ground for litigation and thus for more deliberate
investigation.”’ Welch v. Brown, 551 F. App’x 804, 812 (6th
Cir. 2014) (affirming the award of a preliminary injunction
and finding that further fact finding on the “reasonable
and necessary” prong was necessary in the district court)
(quoting Six Clinics Holding Corp., II v. Cafcomp Sys.,
Inc., 119 F.3d 393, 402 (6th Cir. 1997)).
If allowed to stand, the court of appeals’ decision
provides a roadmap for any municipality to breach its own
public contracts, even under a “less deference” standard.
To withstand constitutional scrutiny, a municipality can
point to a large budget deficit, declare a “fiscal crisis,”
trot out the familiar draconian alternatives of layoffs
and furloughs, and declare breaching public contracts
a reasonable and necessary measure to serve the public

30
good. That roadmap to constitutionality betrays the
Framers’ intent.
2. The Court Should Resolve the Circuit Split on the
Allocation of Burden in Contract Clause Cases
Granting certiorari would also provide the opportunity
to resolve a circuit split over the allocation of burden in the
“reasonable and necessary” prong of the current Contract
Clause test.
The Second Circuit concluded that the burden
of setting forth sufficient evidence to show that “less
deference” scrutiny should apply lies with the plaintiff, but
it left open the question and “[took] no position” on whether
the plaintiffs or the State bear the burden of proving the
reasonableness and necessity of the government’s contract
impairing actions. Sullivan, 959 F.3d at 66. (App. 24a) It
found that the question of burden on the “reasonable and
necessary” prong had not been addressed in the court’s
Buffalo Teachers decision and acknowledged the circuit
split. Id. at 67. (App. 24a.)
Because this Court has not had occasion to decide
many Contracts Clause cases, the contours of the “less
deference” standard have been infrequently applied and
the courts of appeals have reached different conclusions
on how it should be administered. Specifically, the circuits
are divided over whether it is plaintiff’s obligation to
demonstrate the government did not explore other, less
drastic alternatives, or whether it is the government’s
burden.

31
The burden should rest with the government. In
addition to the massive informational advantage enjoyed
by the government – the party making the decision to
impair contracts – if the government is being afforded
“less deference,” it would stand to reason that the
government should bear the obligation to demonstrate
that its actions were reasonable and necessary.
Thus, in U.S. Trust Co., this Court found that “the
State has failed to demonstrate that repeal of the 1962
covenant was similarly necessary.” Id. at 31 (emphasis
added). Despite this language, the Court did not explain
whether its articulation was purposefully designed to
place the burden on the government.
In Fortuño, the First Circuit recognized that “many
courts have concluded that this burden rests with the
state” and even acknowledged that the Court has used
language that supports such a finding, but nonetheless
concluded that neither the First Circuit nor the Supreme
Court “have analyzed the issue in detail.” 633 F.3d at
43-44.
In placing the burden on plaintiff, the First Circuit
reasoned that though state action impairing its own
contracts is entitled to “less deference,” the standard
does not imply “no deference.” It held that placing the
burden on plaintiff would not inhibit meritorious contract
claims ‘“[b]ecause the record of what and why the state
has acted is laid out in committee hearings, public reports
and legislation’, it is not difficult to discern the state’s
motivation.” Id. at 45 (citing Buffalo Teachers, 464 F.3d at
365). If a “state purports to impair a contract to address
a budgetary crisis,” the First Circuit posited that “a

32
plaintiff could allege facts showing that the impairment
did not save the state much money, the budget issues were
not as severe as alleged by the state, or that other costcutting or revenue-increasing measures were reasonable
alternatives to the contractual impairment at issue.” Id.
In reaching its conclusion, the First Circuit expressly
relied upon the Second Circuit decision in Buffalo
Teachers, where the court of appeals held with little
explanation that plaintiff had the burden of producing
evidence that the state’s interest rather than the general
welfare motivated the state’s conduct. Fortuño, 633 F.3d
at 44 (citing Buffalo Teachers, 464 F.3d at 365).
Yet, in this case, the Second Circuit made clear that
plaintiff’s evidentiary burden relates only to the question
of whether a measure has a “legitimate public purpose,”
and that Buffalo Teachers did not specifically address the
burden of proof on the “reasonable and necessary” prong.
Sullivan, 959 F.3d at 64.
The First Circuit’s approach conflicts with that of the
Sixth and Ninth Circuit. In Univ. of Haw. Pro. Assembly
v. Cayetano, for example, the Ninth Circuit analyzed
whether a statute requiring a pay lag of state employee
salaries, which breached plaintiffs’ collective bargaining
agreement, was a reasonable and necessary impairment
of government contracts. In applying this Court’s
analytical framework, the court squarely held that “[d]
efendants bear ‘the burden of proving the impairment was
reasonable and necessary because the burden is placed on
the party asserting the benefit of the statute only when
that party is the state.’” 183 F.3d 1096, 1106 (9th Cir. 1999)
(quoting In re Seltzer, 104 F.3d 234, 236 (9th Cir. 1996)).

33
The court recognized that a “higher level of scrutiny”
is required to assess “abrogations of government
obligations” and, on the facts, found that other options
were available to the State including additional budget
restrictions, the repeal of tax credits and the raising
of taxes. Id. at 1107 Defendants in Cayetano did not
sufficiently shoulder their burden in explaining why it
was “reasonable and necessary that the brunt of Hawaii’s
budgetary problems be borne by its employees.” Id.
The Sixth Circuit, too, in Toledo Area AFL-CIO
Council v. Pizza, 154 F.3d 307, 323, 326 (6th Cir. 1998),
held that once a plaintiff has established a substantial
impairment, the burden shifts to the state to “proffer[]
such a significant and legitimate public purpose for the
regulation,” and found that the state had not made a
sufficient showing to overcome the high hurdle, given the
state’s “obvious self-interest”, that the impairment was
reasonable and necessary.
Within the Second Circuit, the question of burden
for whether a law is “reasonable and necessary” remains
unresolved. In a Contract Clause case following Buffalo
Teachers, the Northern District of New York squarely
found that it was defendants’ burden to show that options
short of breaching municipal contracts were actually
considered and tried and that there were no other evident
and moderate courses available. Donohue v. Paterson, 715
F. Supp. 2d 306, 322 (N.D.N.Y. 2010). To meet the burden,
the district court found that it was insufficient to make
broad reference to an economic problem or a “fiscal crisis,”
because that “does not speak to the policy consideration
and tailoring that is required to pass scrutiny…” Id. at
323. Without defendants showing “a substantial record” of

34
considered alternatives, the reasonableness and necessity
of the challenged actions were “cast in serious doubt.” Id.
at 322.
In the instant case, although “assuming” that the
burden rested with the defendants, the court held that
plaintiffs had not provided “a response” to the budgetary
deficit problem and analyzed plaintiffs’ proffered
alternatives, rather than any policy options offered by
defendants. Sullivan, 959 F.3d at 68 (dismissing plaintiff’s’
“alternative proposals” and lack of plaintiffs ‘‘proffer[ed]
evidence” on the powers of NIFA and the County).
If plaintiff is successful in bearing the burden of
demonstrating that the impairment was substantial and
that the government was acting in its self-interest, as
the Circuit Court found for Petitioners here, it defies
logic to then place the burden on plaintiffs to also show,
under a “less deference” standard, that the government
action was neither reasonable nor necessary. Information
about more moderate budgetary courses tried and policy
alternatives considered falls largely within the possession
of the government. Had the Second Circuit appropriately
placed the burden on defendants and required them to
set forth a substantial record of measures considered and
tried, there is little question that the burden would not
have been met. At the very least, as in Donohue, NIFA’s
and the County’s action would have been “cast in serious
doubt.”
To properly place the burden on defendants and to
restore and clarify the standard under the “less deference”
standard, the Second Circuit’s decision warrants review.

35
CONCLUSION
The Petition for a Writ of Certiorari should be
granted.
Respectfully submitted.
Koehler & Isaacs LLP
61 Broadway, 25th Floor
New York, NY 10006
(212) 551-1331

A lan M. Klinger
Counsel of Record
Shira A. Scheindlin
David J. K ahne
Stroock & Stroock
A aron E. K aplan
& Lavan LLP
Civil Service Employees
180 Maiden Lane
A ssociation, Inc., Local 1000, New York, NY 10038
A fscme AFL-CIO
(212) 806-5400
Box 7125, Capitol Station
aklinger@stroock.com
143 Washington Avenue
Steven Losquadro
Albany, NY 122224
649 Route 25A, Suite 4
(518) 257-1443
Rocky Point, NY 11778
(631) 744-9040
Counsel for Petitioners

APPENDIX

1a
Appendix A — Appendix
opinionAof the united
states court of appeals FOR THE SECOND
CIRCUIT, DATED MAY 13, 2020
IN THE United States Court of Appeals
for the Second Circuit
Nos. 18-1587-CV (L), 18-1606-CV (CON),
18-1634-CV (CON)
BRIAN SULLIVAN, AS PRESIDENT OF THE
NASSAU COUNTY SHERIFF’S CORRECTION
OFFICERS BENEVOLENT ASSOCIATION,
NASSAU COUNTY SHERIFF’S CORRECTION
OFFICERS BENEVOLENT ASSOCIATION, JAMES
CARVER, AS PRESIDENT OF THE NASSAU
COUNTY POLICE BENEVOLENT ASSOCIATION,
GARY LEARNED, AS PRESIDENT OF THE
SUPERIOR OFFICERS ASSOCIATION OF
NASSAU COUNTY, THOMAS R. WILLDIGG, AS
PRESIDENT OF THE NASSAU COUNTY POLICE
DEPARTMENT DETECTIVES’ ASSOCIATION,
INC., JERRY LARICCHIUTA, AS LOCAL
PRESIDENT OF CSEA NASSAU COUNTY LOCAL
830, DANNY DONOHUE, AS PRESIDENT OF THE
CIVIL SERVICE EMPLOYEES ASSOCIATION
INC. LOCAL 1000, AFSCME, AFL-CIO, CIVIL
SERVICE EMPLOYEES ASSOCIATION, LOCAL
1000 AFSCME, AFL-CIO,
Plaintiffs-Appellants,
v.

2a
Appendix A
NASSAU COUNTY INTERIM FINANCE
AUTHORITY, RONALD A. STACK, AS CHAIRMAN
AND DIRECTOR OF THE NASSAU COUNTY
INTERIM FINANCE AUTHORITY, GEORGE J.
MARLIN, LEONARD D. STEINMAN, THOMAS
W. STOKES, ROBERT A. WILD, CHRISTOPHER
P. WRIGHT, AS DIRECTORS OF THE NASSAU
COUNTY INTERIM FINANCE AUTHORITY,
EDWARD MANGANO, IN HIS OFFICIAL
CAPACITY AS COUNTY EXECUTIVE OF NASSAU
COUNTY, GEORGE MARAGOS, IN HIS OFFICIAL
CAPACITY AS NASSAU COUNTY COMPTROLLER,
Defendants-Appellees.
August Term, 2019
September 23, 2019, A rgued
M ay 13, 2020, Decided
Appeal from the United States District Court
for the Eastern District of New York.
Nos. 11-CV-1614, 11-CV-1900, 11-CV-2743 –
Joanna Seybert, District Judge.
Before: CALABRESI, LOHIER,
Judges.

and

PARK, Circuit

On March 24, 2011, the Nassau County Interim
Finance Authority (“NIFA”) instituted a year-long wage
freeze for all Nassau County employees. The various unions
representing these employees sued NIFA, its directors,
and other County leaders, alleging that this wage freeze,

3a
Appendix A
because it was a legislative act that was not reasonable
and necessary to achieve NIFA’s purported goal of fiscal
soundness, violated the Contracts Clause of the United
States Constitution. The district court (Seybert, J.)
granted summary judgment for the defendants, holding
that NIFA’s implementation of the wage freeze was
administrative, as opposed to legislative, and therefore did
not implicate the Contracts Clause. We assume without
deciding that NIFA’s imposition of the wage freeze was
legislative in nature. We, however, conclude that the
wage freeze was a reasonable and necessary means to
achieve NIFA’s asserted end of ensuring the continued
fiscal health of the County. For that reason, we hold that
it did not violate the Contracts Clause, and we therefore
AFFIRM the judgment of the district court.
Judge Park concurs in a separate opinion.

4a
Appendix A
Guido Calabresi, Circuit Judge:
Plaintiffs, various unions and union leaders, represent
much of the workforce of Nassau County in the state of
New York. They brought this suit alleging that in 2011, the
defendants—several County leaders as well as the Nassau
County Interim Finance Authority (“NIFA”) and its
members—froze wages for County employees in violation
of the Contracts Clause of the United States Constitution.
The parties filed cross-motions for summary judgment,
and the district court granted summary judgment for
the defendants. It concluded that NIFA’s implementation
of a wage freeze was administrative in nature. Because
the Contracts Clause applies only to legislative acts, the
district court held that the wage freeze did not violate,
indeed did not even implicate, the Contracts Clause.
We assume arguendo that the wage freeze was a
legislative act that implicated the Contracts Clause. We
nevertheless affirm the district court’s grant of summary
judgment because, even if the wage freeze was legislative,
the defendants have met their burden of showing that it
was a reasonable and necessary means of accomplishing a
legitimate public purpose: remedying the County’s fiscal
problems.
BACKGROUND
A. The Nassau County Interim Finance Authority
Around the turn of the millennium, Nassau County
was in the throes of a fiscal emergency. To rescue it, the

5a
Appendix A
New York Legislature passed the Nassau County Interim
Finance Authority Act. N.Y. Pub. Auth. Law § 3650 et
al. (“NIFA Act”). That act provided Nassau County
with $100 million of direct funding and created NIFA, a
“corporate governmental agency and instrumentality of
the state constituting a public benefit corporation” that
would oversee the County’s finances. NIFA Act § 3652.
Among the powers given NIFA by that act was the power
to impose a “control period” when NIFA determined that,
“assuming all revenues and expenditures are reported in
accordance with generally accepted accounting principles,”
there exists “a substantial likelihood and imminence of”
an operating funds deficit in the County’s budget of one
percent or more. Id. § 3669(1).
Under the NIFA Act, once NIFA declares a control
period it gains significant oversight authority of the
County’s finances. This includes the ability to approve or
disapprove any proposed “contract or other obligation” or
“long-term and short-term borrowing by the [C]ounty.”
Id. §§ 3669(2)(d)(iii), (2)(e).
Most relevant here, however, when a control period
is in place, NIFA is given the ability to freeze County
employees› wages. Thus, when a control period has been
declared, NIFA may make a finding “that a wage freeze
is essential to the adoption or maintenance of a county
budget” and enact a resolution declaring that a “fiscal
crisis” exists in the County. Id. § 3669(3)(a). NIFA may
then suspend all wage increases of County employees for
one year. It may do so even though doing this negates the
wage increases called for in those employees’ previously

6a
Appendix A
negotiated contracts. Id. NIFA may, in its discretion,
end the wage freeze at any time if it finds that the fiscal
crisis has been alleviated or for any other valid reason.
Id. § 3669(3)(c).
B. The County’s Agreements with The Plaintiffs
Each of the plaintiffs-appellants represents a County
employee union that had an agreement affected by NIFA’s
decision to freeze wages. Plaintiffs Brian Sullivan,
James Carver, Gary Learned, and Thomas Willdigg
are the presidents of four law-enforcement unions: the
Nassau County Sheriff’s Correction Officers Benevolent
Association, the Nassau County Police Benevolent
Association, the Superior Officers Association of Nassau
County, and the Nassau County Police Department
Detectives’ Association, Inc., respectively. Plaintiffs Jerry
Laricchiuta and Danny Donohue are presidents of affected
branches of the Civil Service Employees Association.
Each union had a collectively bargained agreement
that was settled after the passage of the NIFA Act in
2000, but before NIFA implemented a wage freeze in
2011. All these agreements were the result of arbitration
proceedings, as the unions and the County were unable to
reach agreement through their own negotiations. Among
other concessions and benefits, each of these agreements
granted union members a wage increase during every
year that they were in effect.

7a
Appendix A
C. Nassau County’s Financial State
In 2010, the County’s finances were in an unhealthy
state. The County had been counting millions of dollars
of borrowing as revenue, thereby making a potential
liability appear to be a boon. Meanwhile, the County had
limited ability to reduce its expenses because much of its
budget was tied to either state or federal mandates. In
2007, for example, the County’s Office of Management
and Budget estimated that “approximately 70%” of the
County’s budget was “beyond its control.” No. 18-1606,
Joint App’x 122. At the same time, about half of the
County’s expenditures were labor costs—including the
salary and benefits of the plaintiffs here. Nevertheless,
the County’s bond rating was “fine.” No. 18-1587, Joint
App’x 887. It was not approaching bankruptcy, and it
had a sufficient flow of cash to meet its obligations. There
were also signs, such as increasing sales-tax revenue and
decreasing unemployment, that the County’s financial
state was on the upswing.
Despite its financial woes, Nassau County was one of
the wealthiest counties in New York, and indeed the nation,
with a median annual household income approaching
$100,000. But the County also had the highest median
property taxes in the nation. In part this was because
of the value of homes in the County, but it was also in
part due to the tax rate the County imposed on those
homes. Given this backdrop, many County residents were
opposed to the imposition of additional taxes. And so, when
Defendant Edward Mangano ran for County Executive on
an “anti-property tax platform,” No. 18-1587, Joint App’x
157, he won.

8a
Appendix A
Mangano’s first act in office was to sign the repeal of
a home energy tax which had been projected to produce
tens of millions of dollars in revenue in future years. An
act to repeal that tax had been passed on a bipartisan
basis in the County Legislature and was sent to him
immediately after the election. Mangano also chose not
to include in the County’s budget for 2010 a previously
planned 3.9% property tax increase. This tax increase
had been projected to raise approximately $32 million
each year in 2011, 2012, and 2013.
D. The 2011 Wage Freeze and Its Aftermath
Shortly after Mangano took office, the NIFA
Chairman, Defendant Ronald Stack, inquired as to how
the County intended to make up the lost revenue from
these foregone taxes. The County’s proposed budget for
2011 sought to answer that question, but NIFA found
that numerous items in that budget—amounting to
approximately $244.4 million—were too uncertain to be
relied on in determining whether the County’s budget
would be balanced.
The predicted budget imbalance was not, however, all
the County’s doing. NIFA had recently reversed course on
allowing several accounting measures that the County had
used in past budgets to help achieve balance. Specifically,
NIFA forced the County to conform its 2011 budget to
Generally Accepted Accounting Principles (“GAAP”) and
no longer allowed the County to borrow to pay property
tax judgments, known as “tax certs,” which the County
owed to its residents from overcharging them on their
real property tax assessments.

9a
Appendix A
Despite continued discussions between the County
and NIFA, the County ultimately went forward with a
2011 budget that NIFA believed was unbalanced. Shortly
after the County passed this budget, Moody’s downgraded
the County’s credit rating, deeming approximately $158
million of projected revenue to be at risk.
On January 26, 2011, based on its conclusion that
there was a likelihood and imminence of a major operating
funds deficit—defined by the NIFA Act as a deficit of
greater than one percent—in the County’s 2011 budget,
NIFA declared a control period. As stated earlier, the
implementation of a control period gave NIFA significantly
greater oversight powers. Among those additional powers
was the ability to implement a wage freeze if NIFA
concluded that there was a fiscal crisis and “a wage freeze
[was] essential to the adoption or maintenance of a county
budget ....” NIFA Act § 3669(3)(a).
On March 24, 2011, NIFA passed two resolutions:
the first, finding that a wage freeze was essential to the
County’s budget; the second, implementing such a wage
freeze. NIFA gave numerous reasons for its decision. In
addition to its own analysis of the County’s financial state,
NIFA relied on County Executive Mangano’s explicit
request for a wage freeze, the numerous other labor
cuts, such as layoffs and furloughs, that the County had
budgeted, and the County’s own attempt to implement a
similar wage freeze in the previous year.
After NIFA imposed the wage freeze, both NIFA and
the County took numerous additional steps to improve

10a
Appendix A
the County’s fiscal health. NIFA commissioned an outside
consultant, Grant Thornton, to study County operational
efficiencies and potential sources of revenue. That study
identified between $251 and $319 million in possible
savings for the County from a variety of initiatives and
methods. While the County was generally favorable to
some of these proposals, Nassau County Police Benevolent
Association President (and plaintiff) James Carver
called others “draconian” and potentially in violation of
previously agreed to contracts.
The County took steps to lay off hundreds of workers
during 2011 and has, in the years since 2010, eliminated
more than 1,000 positions. Moreover, in October 2012,
NIFA refinanced several hundred million dollars of
debt, saving the County approximately $34.8 million.
Significantly, had NIFA refinanced this debt when the
County originally requested it (before the wage freeze)
the County would have saved notably less.
E. Procedural History
The unions brought suit in the federal district court
for the Eastern District of New York in 2011, shortly after
the wage freeze went into effect. They argued that NIFA
did not have the power to freeze wages under state law,
and that the wage freeze violated the Contracts Clause of
the United States Constitution. The district court ruled
in their favor on state law grounds, holding that NIFA
lacked the power to freeze wages after 2008. Accordingly,
it did not reach the constitutional, Contracts Clause claim.
See Carver v. Nassau County Interim Fin. Auth., 923 F.
Supp. 2d 423, 429 (E.D.N.Y. 2013).

11a
Appendix A
We, however, held that the state-law issue that the
district court had decided was a novel one that should
have first been decided by the state courts. And so, we
vacated and remanded the district court’s decision. See
Carver v. Nassau County Interim Fin. Auth., 730 F.3d
150, 155-56 (2d Cir. 2013).
The unions then brought suit in state court, while the
district court stayed the federal constitutional issue. The
state courts reached the opposite conclusion of the district
court and held that NIFA had the power to impose a wage
freeze in the relevant year. See Matter of Carver v. Nassau
County Interim Fin. Auth., 142 A.D.3d 1003, 38 N.Y.S.3d
197 (App. Div. 2d Dep’t), leave to appeal denied, 28 N.Y.3d
911, 47 N.Y.S.3d 226, 69 N.E.3d 1022 (2016) (Table).
After losing in state court, the unions returned to the
district court to litigate their constitutional, Contracts
Clause, claim. The parties filed cross motions for summary
judgment, and the district court ruled in the defendants’
favor. It held that NIFA’s decision to impose a wage freeze
was administrative and not legislative in nature, and so
did not implicate the Contracts Clause. The unions moved
to reconsider, and those motions were denied. Each union
timely appealed, and we consolidated the three appeals
by joint motion of the parties.1

1. The Sullivan plaintiffs filed an amended notice of appeal
additionally appealing the denial of their motion for reconsideration.
They, however, make no arguments specific to their reconsideration
motion, and so we do not discuss it further.

12a
Appendix A
STANDARD OF REVIEW
We review the district court’s evaluation of crossmotions for summary judgment de novo, “examining each
motion ‘on its own merits.’” Vugo, Inc. v. City of New York,
931 F.3d 42, 48 (2d Cir. 2019) (quoting Chandok v. Klessig,
632 F.3d 803, 812 (2d Cir. 2011)). “Summary judgment
is proper only when ‘the movant shows that there is no
genuine dispute as to any material fact and the movant
is entitled to judgment as a matter of law.’” Id. (quoting
Fed. R. Civ. P. 56(a)).
DISCUSSION
A. Legislative, Administrative, and Judicial Acts
The Contracts Clause of the United States Constitution
states that “[n]o State shall ... pass any ... Law impairing
the Obligation of Contracts.” U.S. Const. Art. I § 10, cl. 1.
A prerequisite to any violation of that Clause is that the
challenged action be a “[l]aw” or, as the Supreme Court
has explained, that it be legislative in nature. See New
Orleans Waterworks Co. v. Louisiana Sugar Refining
Co., 125 U.S. 18, 30-32, 8 S. Ct. 741, 31 L. Ed. 607 (1888).
In most Contracts Clause cases, whether the
challenged action is legislative in nature is obvious and so
does not bear mentioning. A State passes a statute that
allegedly impairs a plaintiff’s contract, and the plaintiff
attacks that statute directly. See, e.g., Buffalo Teachers
Fed’n v. Tobe, 464 F.3d 362 (2d Cir. 2006).

13a
Appendix A
But in other cases, whether an action is legislative
is not so clear. As here, there is a statute underlying an
action challenged by a plaintiff, but the action taken could
itself be labeled as judicial or administrative rather than
legislative. This triumvirate of possibilities—legislative,
judicial, or administrative—is further complicated by
the Supreme Court’s long and consistently held view that
whether actions are legislative “depends not on their form
but upon ‘whether they contain matter which is properly
to be regarded as legislative in its character and effect.’”
I.N.S. v. Chadha, 462 U.S. 919, 952, 103 S. Ct. 2764, 77 L.
Ed. 2d 317 (1983) (quoting S. Rep. No. 1335, 54th Cong.,
2d Sess., 8 (1897)). See also New Orleans Waterworks Co.,
125 U.S. at 30-31 (“[I]t is not strictly and literally true that
a law of a state, in order to come within the constitutional
prohibition, must be either in the form of a statute enacted
by the legislature in the ordinary course of legislation, or
in the form of a constitution ....”); Williams v. Bruffy, 96
U.S. 176, 183, 24 L. Ed. 716 (1877) (“Any enactment, from
whatever source originating, to which a State gives the
force of law is a statute of the State, within the meaning
of the clause cited ....”).
What does it mean, then, for an action to be legislative?
Part of the inquiry revolves around whether the action
is forward or backward-looking. “Legislation ... looks to
the future and changes existing conditions by making a
new rule, to be applied thereafter to all or some part of
those subject to its power.” Prentis v. Atl. Coast Line Co.,
211 U.S. 210, 226, 29 S. Ct. 67, 53 L. Ed. 150 (1908). By
contrast, “[a] judicial inquiry investigates, declares, and
enforces liabilities as they stand on present or past facts

14a
Appendix A
and under laws supposed already to exist.” Id. Similarly,
an action has been deemed not legislative if it involves the
application, as opposed to the creation, of a rule.
For example, Louisiana once passed legislation
granting a company exclusive rights to provide water
to the city of New Orleans, but in the same legislation
allowed the New Orleans city council to “grant[] to any
person or persons, contiguous to the river, the privilege
of laying pipes to the river, exclusively for his own or
their own use.” New Orleans Waterworks Co., 125 U.S.
at 20. Acting pursuant to this legislation, the city council
allowed the Louisiana Sugar-Refining Company to set up
a water and sewage system for its own use only. Id. at 21.
The New Orleans Water-Works Company sued, alleging
that this grant impaired its contract for the exclusive
provision of water to all within New Orleans. But the
Supreme Court held the city council’s decision was the
mere application of the state’s previously established
rule because “[t]he legislature itself [] defined the class of
persons to whom, and the object for which, the permission
might be granted. All that was left to the city council was
the duty of determining what persons came within the
definition....” Id. at 32. The city council’s decision was thus
administrative, and not subject to the Contracts Clause’s
requirements. Id.
When combined with the well-established idea that
contracts necessarily incorporate the law as it stands at
the time of contract formation, see 2 Tudor City Place
Assoc. v. 2 Tudor City Tenants Corp., 924 F.2d 1247,
1254 (2d Cir. 1991), the Supreme Court’s treatment in

15a
Appendix A
New Orleans Waterworks Co. would seem to create a
bright line: actions taken to implement a statute enacted
by a legislature prior to the creation of a contract do
not implicate the Contracts Clause. See also Ogden v.
Saunders, 25 U.S. 213, 295, 6 L. Ed. 606 (1827) (explaining
that the Contracts Clause’s concern is contracts entered
into prior to the taking of the challenged legislative action).
But that potentially simple rule is complicated by two
additional and commingled factors: the Supreme Court’s
holding that the exercise of some powers, no matter who
exercises them, is necessarily legislative; and the advent of
oversight agencies like NIFA, with authority to act under
broad delegations of state power. Such powers may be too
broad to be viewed as simply applications of a previously
established rule.
This first factor is most easily seen in the example of a
municipality. It has been settled law since the nineteenth
century that an action exercising a state’s powers to
tax, to exercise its police authority, or to engage in
other inherently legislative activities remains legislative
regardless of whether a state delegates that action to a
municipality or to some other entity. See St. Paul Gaslight
Co. v. City of St. Paul, 181 U.S. 142, 148, 21 S. Ct. 575, 45
L. Ed. 788 (1901) (“It is no longer open to question that
‘a by-law or ordinance of a municipal corporation may be
such an exercise of legislative power delegated by the
legislature to the corporation as a political subdivision
of the state, having all the force of law ... that it may
properly be considered as a law, within the meaning of the
[Contracts Clause].’” (quoting New Orleans Waterworks
Co., 125 U.S. at 31)). That is why, when a municipality, or

16a
Appendix A
some other subdivision of a state, passes an ordinance that
requires the exercise of the taxing or police powers to be
effective, that ordinance is a “law” within the meaning of
the Contracts Clause. See, e.g., United States v. City of
New Orleans, 98 U.S. 381, 392-93, 25 L. Ed. 225 (1878)
(discussing the power to tax). And it is not, by itself,
determinative that the state delegated that power to a
municipality or other entity in a statute enacted before
the parties entered into the relevant contract.
The second factor directly touches the case before
us. For in NIFA we deal with a paradigmatic example
of the recent phenomenon of state-created oversight or
emergency management authorities that operate under
broad mandates. According to one commentator, at least
nineteen states have passed these types of laws, which
give emergency powers to an independent oversight
authority like NIFA. See Comment, Rodney W. Harrell,
The Contract Clause of the Constitution and the Need
for “Pass Any ... Law” Rehabilitation in the Age of
Delegation, 22 Geo. Mason L. Rev. 1317, 1327 & n.78 (2015).
Because these authorities are designed to take action
in potentially dire situations, their statutory authority
is usually expansive. A Michigan emergency manager
statute, for example, gave that authority numerous powers,
including the ability to “adopt or amend ordinances” or
“to reject, modify, or terminate 1 or more terms and
conditions of an existing collective bargaining agreement
... [as] a legitimate exercise of the state’s sovereign powers
... if the emergency manager and the state treasurer
determine that [certain] conditions are satisfied.” Welch
v. Brown, 551 F. App’x 804, 809 (6th Cir. 2014) (quoting

17a
Appendix A
Mich. Comp. Laws § 141.1519(1)(k)). Not surprisingly, the
Sixth Circuit held that actions taken by an emergency
manager under this statute were legislative “because [the
emergency manager statute] explicitly contemplates that
the Emergency Manager’s orders will carry the force of
the state’s sovereign powers.” Id. at 809-10.
The NIFA Act does not grant NIFA powers nearly
as expansive as Michigan’s emergency manager statute,
which essentially allowed the emergency manager to act
in place of a town’s mayor and city council. See id. But it
does have similarities. Most importantly, both acts allow
the oversight authority not only to breach a previously
made employment contract to which a state entity is a
party, but to use the state’s powers to invalidate portions
of those contracts, thereby negating any state law breach
of contract remedy. And the federal Circuit Courts, as
well as the Supreme Court, have consistently viewed
this distinction—between breach and the removal of any
remedy for a breach—as a line delineating whether a
Contracts Clause claim might lie. See, e.g., E & E Hauling,
Inc. v. Forest Preserve Dist. of Du Page Cty., Ill., 613 F.2d
675, 679-80 (7th Cir. 1980) (citing Hays v. Port of Seattle,
251 U.S. 233, 237, 40 S. Ct. 125, 64 L. Ed. 243 (1920) and
St. Paul Gaslight Co., 181 U.S. at 142).
It is plain that either the NIFA Act itself or NIFA’s
decision, under that Act, to impose a wage freeze
implicates the Contracts Clause. 2 But which of the two
2. Of course, the fact that an action implicates the Contracts
Clause does not—as we will explain soon enough—mean that it
violates the Clause.

18a
Appendix A
is it? The NIFA Act authorized the impairment, but it
did not actually impair any of the plaintiffs’ contracts.
Indeed, the NIFA Act predates each of the contracts at
issue. Conversely, NIFA’s decision to impose a wage freeze
did impair earlier made contracts, because that decision
both breached the plaintiffs’ contracts and negated the
plaintiffs’ state-law remedy. But that action could be
characterized as no more than the administration of the
NIFA Act, thereby making it a non-legislative action
that does not implicate the Clause. Alternately, it can
be deemed an action taken under a grant of delegated
legislative authority that is so broad that the action
amounts to something like the passage of an ordinance
by a municipality.
Because we can uphold NIFA’s actions on other
grounds, we need not, and hence, do not, decide on which
side of the line NIFA’s wage freeze decision falls. And,
assuming arguendo that NIFA’s decision implicates the
Contracts Clause, we hold that summary judgment for the
defendants-appellees was nevertheless proper, concluding
that NIFA’s decision was reasonable and necessary to
achieve the legitimate public goal of rescuing the County’s
finances.
B. Substantial Impairment and Legitimate
Public Purpose
Assuming then that the wage freeze implicates the
Contracts Clause, we now examine whether it violates that
Clause. The Contracts Clause, as applied to governmental
contracts, incorporates two differing imperatives.

19a
Appendix A
Buffalo Teachers, 464 F.3d at 367-68. The first is that the
government, like private parties, is bound by its contracts
and may not use its governmental powers to impair
these contracts materially. The second is that the state
may not contract away its power to govern in the public
interest. A government contract that induces a sword
company to produce plowshares cannot be abrogated by
an otherwise valid statute simply because the government
later discovers that a knife company can make cheaper
plowshares. On the other hand, a clause in that contract
that says the state will forego war cannot keep the
government from declaring war when the national security
demands it.
To determine which of these is occurring, we must
examine: “(1) [whether] the contractual impairment [is]
substantial and, if so, (2) [whether] the law serve[s] a
legitimate public purpose such as remedying a general
social or economic problem and, if such purpose is
demonstrated, (3) [whether] the means chosen to
accomplish this purpose [are] reasonable and necessary.”
Buffalo Teachers, 464 F.3d at 368 (citing Energy Reserves
Grp., Inc. v. Kan. Power & Light Co., 459 U.S. 400, 411-13,
103 S. Ct. 697, 74 L. Ed. 2d 569 (1983)).
If the impairment is insubstantial, or the law is a
reasonable and necessary means to remedy a legitimate
public purpose, the Contracts Clause is not violated. What
constitutes substantial impairment and public purpose
were addressed directly in Buffalo Teachers, which
presented a situation nearly identical to ours, and which,
therefore, both binds and guides our analysis.

20a
Appendix A
a) Substantial Impairment
The substantiality of an impairment depends upon
“the extent to which reasonable expectations under the
contract have been disrupted.” Sanitation & Recycling
Indus., Inc. v. City of New York, 107 F.3d 985, 993 (2d Cir.
1997). And the reasonableness of expectations depends, in
part, on whether legislative action was foreseeable, and
this, in turn, is affected by whether the relevant party
operates in a heavily regulated industry. See id. (citing
Veix v. Sixth Ward Bldg. & Loan Ass’n, 310 U.S. 32, 38,
60 S. Ct. 792, 84 L. Ed. 1061 (1940)).
In Buffalo Teachers, we said that “[c]ontract provisions
that set forth the levels at which union employees are to be
compensated are the most important elements of a labor
contract. The promise to pay a sum certain constitutes not
only the primary inducement for employees to enter into
a labor contract, but also the central provision upon which
it can be said they reasonably rely.” 464 F.3d at 368. In
other words, wage levels are a crucial component of labor
contracts and are likely to create reasonable expectations.
The defendants argue, however, that in the instant
case the County raised the possibility of a NIFA-mandated
wage freeze during the arbitration proceedings that led to
some of the plaintiffs’ contracts. And hence, they assert,
the wages settled on could not have created reasonable
expectations. This argument is unavailing.
As an initial matter, we note that the possibility of
a wage freeze was raised only during the police unions’

21a
Appendix A
contract negotiations, and so could not affect the Contracts
Clause analysis for the CSEA plaintiffs. But even as to
the police unions, the context of the statements belies
any possibility that those statements made a wage freeze
something the police unions should be held reasonably to
expect.
Putting aside contract law’s general distaste for
extrinsic evidence, see CNH Indus. N.V. v. Reese, 138 S. Ct.
761, 765, 200 L. Ed. 2d 1 (2018), the County’s statements
suggesting that a wage freeze might occur were made
during an adversarial proceeding before arbitrators. And
there is nothing in the record to suggest that either the
unions or the arbitrators adjudicating that proceeding
adopted the County’s view that a NIFA-imposed wage
freeze was imminent or likely. Indeed, the arbitrators
almost certainly rejected the County’s view. They awarded
the unions wage increases that extended over the life
of the contracts, and New York law requires that, in
collective bargaining proceedings, arbitrators consider
“the financial ability of the public employer to pay.” N.Y.
Civ. Serv. L. § 209(4)(c)(v)(b).
Moreover, the arbitrators’ apparent rejection of the
County’s argument that a wage freeze was forthcoming
seems eminently reasonable. The County had no power
to impose a wage freeze itself. That power belonged
exclusively to NIFA. And NIFA, at the time of the
arbitration, had given no indication that a wage freeze was
forthcoming. Moreover, it had never previously imposed a
wage freeze, even in 2000 when the NIFA Act was passed
and the County’s finances were at their nadir.

22a
Appendix A
We decline to say that any statements discussed during
contract negotiations, despite not being incorporated into
the contract, suffice to upset the otherwise reasonable
expectations of the contracting parties. And so we adhere
to our holding in Buffalo Teachers that a substantial
impairment exists when a law changes “the levels at
which union employees are to be compensated.” Buffalo
Teachers, 464 F.3d at 368.
b) Public Purpose
Our holding in Buffalo Teachers, however, also makes
clear that NIFA acted with a legitimate public purpose in
the case before us when it chose to freeze the plaintiffs’
wages. NIFA acted in order to alleviate what it viewed as
a fiscal crisis in the County, and this is a legitimate public
purpose with respect to the Contracts Clause. Buffalo
Teachers, 464 F.3d at 368.
The plaintiffs argue that this was a “paper crisis”
caused by NIFA’s requirement that the County use GAAP
for its 2011 budget. But the plaintiffs’ have presented no
evidence to undermine NIFA’s findings that the County’s
2011 proposed budget would likely lead to a $50 million
deficit even without the switch to GAAP, and that the
2011 budget already included other draconian measures
to solve the County’s fiscal problems—like layoffs and
unpaid furloughs. It is thus clear that NIFA did not impose
the wage freeze “for the mere advantage of particular
individuals.” Home Bldg. & Loan Ass’n v. Blaisdell, 290
U.S. 398, 445, 54 S. Ct. 231, 78 L. Ed. 413 (1934). Instead,
NIFA froze the plaintiffs’ wages “for the protection of a
basic interest of society.” Id.

23a
Appendix A
The key to all this—we repeat—is to determine
whether the state in breaching a contract is acting like
a private party who reneges to get out of a bad deal, or
is governing, which justifies its impairing the plaintiffs’
contracts in the public interest. It was with this in mind
that in Buffalo Teachers we developed and applied a “less
deference” standard. It is to that standard, and what it
entails, that we now turn.
C. Reasonableness and Necessity
Under the Buffalo Teachers “less deference” standard,
we look first to whether the contract impaired is public
or private. If—like the one before us—it is public, we ask
whether there is “some indicia” that the state impaired
the contract out of its own self-interest. Buffalo Teachers,
464 F.3d at 369-70. If so, then “less deference” scrutiny
applies and “it must be shown that the state did not (1)
‘consider impairing the ... contracts on par with other
policy alternatives’ or (2) ‘impose a drastic impairment
when an evident and more moderate course would serve
its purpose equally well,’ nor (3) act unreasonably ‘in light
of the surrounding circumstances.’” Id. at 370 (quoting
United States Trust Co. v. New Jersey, 431 U.S. 1, 30-31, 97
S. Ct. 1505, 52 L. Ed. 2d 92 (1977)). These factors amount
to a requirement that the state acted both reasonably and
out of necessity.
In other words, when the state impairs a public
contract the presumption that a passed law is valid and
done in the public interest does not immediately apply.
Instead, we must examine the record for indicia of self-

24a
Appendix A
serving, privately motivated, action. And if sufficient
evidence of those indicia exists, “less deference” is given,
and the reasonableness and necessity of the government’s
actions must be shown.
This raises the question of who bears each of these
burdens. We conclude that the burden of putting forth
sufficient evidence to show that “less deference” scrutiny
should apply lies with the plaintiffs, and that the plaintiffs
have met that burden here. We, however, take no position
on whether the plaintiffs or the government bears the
burden of proving the reasonableness and necessity of the
government’s contract-impairing actions. This question
was not squarely addressed in Buffalo Teachers and has
split the other Courts of Appeal that have addressed the
issue. Compare United Auto., Aerospace, Agr. Implement
Workers of Am. Int’l Union v. Fortuño, 633 F.3d 37, 43
(1st Cir. 2011) (placing this burden on the plaintiffs), with
Toledo Area AFL-CIO Council v. Pizza, 154 F.3d 307, 323
(6th Cir. 1998) (placing this burden on the government
defendants), and Nevada Employees Assoc., Inc. v.
Keating, 903 F.2d 1223, 1228 (9th Cir. 1990) (same). We
hold today that even assuming arguendo that the burden is
on the government, the defendants here have successfully
borne it.
a) What Plaintiffs Must Show for “Less Deference”
Scrutiny to Apply
As we stated in Buffalo Teachers, determining
whether to apply “less deference” scrutiny requires
“focusing on whether the contract-impairing law is self-

25a
Appendix A
serving.” 464 F.3d at 370. If there are some indicia that
the contract impairment is merely “the government
[reneging] on its obligations—altering the contract for
its own benefit,” then “less deference” scrutiny is needed.
Guido Calabresi, Retroactivity: Paramount Powers &
Contractual Changes, 71 Yale L. J. 1191, 1200-01 (1962).
Thus, “less deference” scrutiny applies only when the
plaintiff has put forward some evidence tending to show
that the government has engaged in reneging instead of
“genuinely acting for the public good.” Buffalo Teachers,
464 F.3d at 370 (citing Blaisdell, 290 U.S. at 445); cf.
United States v. Armstrong, 517 U.S. 456, 468-70, 116
S. Ct. 1480, 134 L. Ed. 2d 687 (1996) (requiring “some
evidence tending to show the existence” of discriminatory
selective prosecution before a defendant is entitled to
receive discovery on that defense).
Reneging is, at its core, about impairments imposed
to benefit the state financially, or as a matter of political
expediency. Therefore, evidence showing indicia of
reneging may take many forms. One of these could be
evidence that the contractual impairment was chosen
when other politically unpopular alternatives were
available. See, e.g., Association of Surrogates & Supreme
Court Reporters v. New York, 940 F.2d 766, 773 (2d Cir.
1991).
Similarly, a plaintiff might show that the state may
have reneged through evidence that the law took aim at a
narrow class of individuals when its purported goals could
be served equally by spreading the necessary sacrifice

26a
Appendix A
throughout a broader, and perhaps more politically
powerful, base. See, e.g., Allied Structural Steel Co. v.
Spannaus, 438 U.S. 234, 250, 98 S. Ct. 2716, 57 L. Ed.
2d 727 (1978) (noting that the change to pension plans in
that case “was leveled, not at every Minnesota employer,
not even at every Minnesota employer who left the State,
but only at those who had in the past been sufficiently
enlightened as voluntarily to agree to establish pension
plans for their employees”); Condell v. Bress, 983 F.2d 415,
419 (2d Cir. 1993) (“We agree that the number of people
involved [in the contractual impairment] is one factor to
be considered on the issue of ‘reasonable and necessary’
....”); Surrogates, 940 F.2d at 773 (“[B]y placing the costs
of improvements to the court system on the few shoulders
of judiciary employees instead of the many shoulders of
the citizens of the state, they ruffle only a few feathers
and fight the ‘exploding drug crisis’ without raising taxes
or cutting other governmental programs.”).
Finally, indicia of reneging may be shown through
evidence that the contractual impairment is a response
to a well-known, long-standing, problem, as opposed to a
change in circumstances. See, e.g., U.S. Trust Co., 431 U.S.
at 31-32 (holding a contractual impairment unreasonable
in part because for “over a half century” “the need for
mass transportation in the New York metropolitan area
was not a new development, and the likelihood that publicly
owned commuter railroads would produce substantial
deficits was well known”).
Applying this standard to the case before us, we
conclude that the plaintiff unions have put forward

27a
Appendix A
sufficient evidence of potential reneging to require the
application of “less deference” scrutiny to NIFA’s wagefreeze decision. The wage freeze potentially benefited
the state of New York financially, as New York had
previously shown itself willing to bail out the County in
other contexts. See No. 18-1587, Joint App’x 52. Indeed,
one of the purposes of NIFA is to provide oversight that
will avoid another bailout. Id. at 52-53. And there is some
evidence that the County pushed for the wage freeze
because alternative savings proposals were unpopular in
the news media. See No. 18-1634, Joint App’x 1514, 160607 (describing an abandoned Memorandum of Agreement
between CSEA and the County). While this latter
action was taken by the County, and not NIFA, NIFA’s
wage-freeze decision was predicated in part on County
Executive Mangano’s request that it impose a wage freeze.
The plaintiffs having met their burden of showing
some evidence that this law may be self-serving, we apply
“less deference” scrutiny to the wage freeze decision
before us. And we must, therefore, examine whether the
requirements of reasonableness and necessity have been
met.
b) The Wage Freeze Was Reasonable and Necessary
Applying “less deferential” scrutiny to NIFA’s wagefreeze decision, we conclude that the wage freeze was a
reasonable and necessary response to the County’s fiscal
crisis. While the plaintiffs maintain that the County’s
fiscal crisis existed only on paper—caused by the
NIFA-mandated switch to GAAP—they have provided

28a
Appendix A
no response to the fact that the County faced a GAAPcalculated 2011 budget deficit of $176 million, and even
under non-GAAP accounting measures the County faced a
$49 million deficit. Significantly, the NIFA Act states that
NIFA “shall impose a control period” when it determines
that the County would incur “a major operating funds
deficit of one percent,” or $27 million in 2011. NIFA Act
§ 3669(1). Moreover, the NIFA Act states that this one
percent deficit is to be calculated “in accordance with
generally accepted accounting principles,” i.e., GAAP. Id.
We therefore find that NIFA was responding to a real, as
opposed to paper, fiscal crisis.
i.

Reasonableness

Given that NIFA was responding to a genuine crisis,
numerous factors underscore the reasonableness of the
2011 wage freeze. First, while the plaintiffs often conflate
the two defendant government entities involved—the
County and NIFA—it is important to recognize that NIFA
is an independent body, subject to some control, not by the
County, but by the state of New York. And it is NIFA, not
the County, which imposed the wage freeze.
Significantly, many of the alternative proposals that
the plaintiffs suggest—reinstating previously planned or
repealed taxes, raising fines and fees, etc.—were solely
under the County’s purview and outside of NIFA’s control.
And the plaintiffs-appellants do not argue, let alone
proffer evidence, that, for purposes of the wage freeze
decision, we should view NIFA and the County as one
and the same, or that the County otherwise undermined

29a
Appendix A
NIFA’s independence. We therefore deem it appropriate
to evaluate the relevant alternatives from the perspective
of what NIFA had the power to accomplish, as opposed
to what the County might perhaps have been able to do.
From this perspective, the wage freeze was clearly
reasonable. It was prospective and “d[id] not affect past
salary due for labor already rendered.” Buffalo Teachers,
464 F.3d at 372. It lasted for one year only, and so was of
limited duration. See Blaisdell, 290 U.S. at 447 (noting
that the temporary nature of an impairment suggested
its reasonableness).
It also came on the heels of, and simultaneously with,
the imposition by the County of drastic cuts to the County’s
labor force. Before the wage freeze went into effect, the
County had reduced employee headcount by 400 through
an early retirement program. And in its 2011 budget, the
County proposed to cut an additional 213 positions through
layoffs and department closures, as well as to require 13
days of unpaid furlough for County employees.
These were, of course, County actions. But NIFA
recognized that without a temporary wage freeze, the
County would have to take further steps along these lines,
and those steps represented “a more drastic alternative”
than the temporary wage freeze. No. 18-1606, Joint App’x
286-87. After reviewing the County’s proposed 2011
budget, NIFA reasonably concluded that the broader
public interest would be served by obtaining savings from
a wage freeze instead of through what appeared to be the
County’s only other remaining options: draconic additional
cuts to the County’s labor force or unpaid furloughs.

30a
Appendix A
While the plaintiff police unions had protection from
layoffs, much of the County’s workforce did not. Any
layoffs were therefore almost certain to be concentrated
among non-police personnel. As NIFA recognized, the
County’s broader workforce was thus likely to prefer
preserving jobs and avoiding unpaid leave to receiving an
incremental wage increase. And the County’s residents
would also benefit because layoffs and furloughs would
lead to a decrease in services, while a wage freeze would
not. Under the circumstances, NIFA’s decision was
eminently reasonable.
ii.

Necessity

Many of these reasons also support a finding that
the wage freeze was necessary. NIFA had no other
discernible options to improve the County’s fiscal state.
As we previously noted, NIFA had no power to force the
County to raise taxes. And there is no evidence to suggest
that the state—NIFA’s superior—was in a position to raise
taxes either. To the extent the state’s financial health is
mentioned in the record, the evidence suggests that it too
was in a financial crunch. (Indeed, the governor in 2011
planned to freeze state employees’ wages!) Additionally,
“even if the state could have raised its taxes, [there was
no reason to believe] any monies so raised would flow to
[the County].” Buffalo Teachers, 464 F.3d at 372.
While the plaintiffs-appellants argue that NIFA
should have commissioned a report auditing the County’s
finances prior to imposing the wage freeze, we do not see
why NIFA should have delayed taking action until this

31a
Appendix A
was done. And, in fact, shortly after imposing the wage
freeze, NIFA commissioned just such a report (the Grant
Thornton Report), though it had no power to force the
County to take any of the report’s suggestions.
The plaintiffs’ argument that NIFA should have
refinanced its debt at lower interest rates prior to the
wage freeze is similarly unavailing. Waiting to refinance
actually allowed NIFA to achieve greater savings.
Time has, moreover, proven NIFA’s belief about the
necessity of the wage freeze to have been correct. Even
after the Grant Thornton Report, the 2011 wage freeze,
increasing fines and fees, and a 1,000-headcount reduction
in County employees since 2010, the County was unable to
put forward a balanced budget. The County’s multi-year
financial plan, set to begin in fiscal year 2012, did not
purport to achieve balance until 2015.
***
In view of these facts, we readily conclude that
NIFA’s actions in imposing the 2011 wage freeze were
both reasonable and necessary and comfortably meet
the standard of “less deference” scrutiny. See Buffalo
Teachers, 464 F.3d at 372. In reaching this conclusion,
we emphasize that “[w]hether the legislation is wise or
unwise as a matter of policy is a question with which we
are not concerned.” Blaisdell, 290 U.S. at 447-48. Our
job is simply to determine whether the wage freeze was
imposed in order to renege on a contract (to get out of a
bad deal) or as a governmental action intended to serve
the public good, as the government saw it.

32a
Appendix A
CONCLUSION
We AFFIRM the District Court’s April 27, 2018
judgment granting summary judgment to the defendantsappellees as well as the District Court’s August 8, 2018
decision denying reconsideration of that summary
judgment decision.

33a
Appendix A
MICHAEL H. PARK, Circuit Judge, concurring in part
and concurring in the judgment:
I concur in the judgment and join in Sections B(b) and
C(b) of the Court’s opinion, which are all that is necessary
to decide this case. I write separately to note that most
of the discussion in the other sections is dicta. That is
because (1) we assume without deciding that NIFA’s action
was legislative rather than administrative, Maj. Op. at 17,
and (2) it does not matter what level of deference should
be given to Defendants because the wage freeze was
clearly reasonable and necessary, id. at 30. At bottom, our
holding today is a straightforward application of Buffalo
Teachers Federation v. Tobe, 464 F.3d 362 (2d Cir. 2006),
which recognized that no analysis of “levels of deference”
is needed when a wage freeze is reasonable and necessary.
See id. at 370 (“For the purposes of this appeal, we need
not resolve what level of deference to apply. Instead,
we will assume that the lower level of deference applies
because . . . the wage freeze is reasonable and necessary
even under the less deferential standard.”). The majority’s
musings, then, about the hallmarks of legislative versus
administrative action, Maj. Op. at 12-17; the types of
evidence that might show government self-interest, id. at
23-26; and the meaning of “less deference,” id. at 22-23,
are all dicta and unnecessary. Thus, I respectfully decline
to join those sections of the majority’s opinion.

34a
Appendix B
Appendix B — MEMORANDUM
AND ORDER
of the united states DISTRICT COURT
FOR THE EASTERN DISTRICT OF NEW YORK,
DATED AUGUST 8, 2018
United States District Court
Eastern District of New York
11-CV-1614(JS)(GRB)
JAMES CARVER, as President of the
Nassau County Police Benevolent
Association, GARY LEARNED, as President
of the Superior Officers Association
of Nassau County, and THOMAS R.
WILLDIGG, as President of the Nassau
County Police Department Detectives’
Association, Inc.,
Plaintiffs,
- against NASSAU COUNTY INTERIM FINANCE
AUTHORITY, RONALD A. STACK, LEONARD D.
STEINMAN, ROBERT A. WILD, CHRISTOPHER
P. WRIGHT, GEORGE J. MARLIN, THOMAS W.
STOKES, in their official capacities
as directors/members of the Nassau
County Interim Finance Authority;
EDWARD MANGANO, in his official
capacity as County Executive of Nassau
County; County of Nassau; and GEORGE
MARAGOS, in his official capacity as
Nassau County Comptroller,
Defendants.

35a
Appendix B
11-CV-1900(JS)(GRB)
JERRY LARICCHIUTA, as Local President
of CSEA Nassau County Local 830; DANNY
DONOHUE, as President of the Civil
Service Employees Association, Inc.,
Local 1000, AFSCMA, AFL-CIO; and CIVIL
SERVICE EMPLOYEES ASSOCIATION, INC.,
LOCAL 1000, AFSCME, AFL-CIO,
Plaintiffs,
-againstNASSAU COUNTY INTERIM FINANCE
AUTHORITY; RONALD A. STACK, as Chairman
and Director of the Nassau County
Interim Finance Authority; GEORGE J.
MARLIN, LEONARD D. STEINMAN, THOMAS W.
STOKES, ROBERT A. WILD and CHRISTOPHER
P. WRIGHT, as Directors of the Nassau
County Interim Finance Authority;
EDWARD MANGANO, in his official
capacity as County Executive of Nassau
County; and GEORGE MARAGOS, in his
official capacity as Nassau County
Comptroller; and the COUNTY OF NASSAU,
Defendants.

36a
Appendix B
11-CV-2743(JS)(GRB)
BRIAN SULLIVAN,1 as President of the
Nassau County Sheriff’s Correction
Officers Benevolent Association, Inc.,
and NASSAU COUNTY SHERIFF’S CORRECTION
OFFICERS BENEVOLENT ASSOCIATION, INC.,
Plaintiffs,
-againstNASSAU COUNTY INTERIM FINANCE
AUTHORITY; RONALD A. STACK, as Chairman
and Director of the Nassau County
Interim Finance Authority; GEORGE J.
MARLIN, LEONARD D. STEINMAN, THOMAS W.
STOKES, ROBERT A. WILD and CHRISTOPHER
P. WRIGHT, as Directors of the Nassau
County Interim Finance Authority;
EDWARD MANGANO, in his official
capacity as County Executive of Nassau
County; and GEORGE MARAGOS, in his
official capacity as Nassau County
Comptroller; and the COUNTY OF NASSAU,
Defendants.
1. John Jaronczyk no longer holds the office of President of the
union and Plaintiffs in this case ask that the caption be amended to
reflect the name of the new President, Brian Sullivan. That request
is GRANTED.

37a
Appendix B
MEMORANDUM AND ORDER
SEYBERT, District Judge:
On April 26, 2018, this Court granted Defendants’
motions for summary judgment and denied Plaintiffs’
motions for summary judgment. Presently before the
Court are motions for reconsideration filed by Plaintiffs in
each case. For the reasons set forth below, those motions
are DENIED.
BACKGROUND
The Court assumes familiarity with the facts and
procedural history of these cases, which are set forth in
detail in the Court’s April 26, 2018 Order (the “April 2018
Order”). See Carver action, Docket Entry 132; Donohue
action, Docket Entry 75; Sullivan action, Docket Entry
89. In brief, the Court ruled that a wage freeze ordered
by Defendant Nassau County Interim Finance Authority
(“NIFA”) was an administrative act, not legislative, and
thus was not a law within the meaning of the Contracts
Clause of the United States Constitution.
Pla inti ffs in a ll three cases have moved for
reconsideration of the April 2018 Order. Defendants
oppose the motions. 2 There is significant overlap in the
arguments presented by all Plaintiffs. Their arguments
2. The NIFA Defendants did not submit their own papers in
opposition, but submitted a letter indicating that they join with the
arguments made by the County Defendants in their papers.

38a
Appendix B
can be distilled to the following contentions: (1) the Court
misapplied or misinterpreted the case Buffalo Teachers
Fed’n v. Tobe, 464 F.3d 362 (2d Cir. 2006); (2) the Court
erroneously found that NIFA’s action did not constitute
a law within the meaning of the Contracts Clause; (3) the
Court’s decision removed the only avenue for constitutional
review of a state action; and (4) there was an intervening
change of controlling law.
DISCUSSION
I.

Legal Standards

“A motion for reconsideration should only be granted
when the [movant] identifies an intervening change
of controlling law, the availability of new evidence, or
the need to correct a clear error or prevent manifest
injustice.” Kolel Beth Yechiel Mechil of Tartikov, Inc.
v. YLL Irrevocable Tr., 729 F.3d 99, 104 (2d Cir. 2013)
(internal quotation marks and citation omitted). A motion
for reconsideration is appropriate when the moving party
believes that the Court overlooked important “‘matters or
controlling decisions’” that would have influenced the prior
decision. Shamis v. Ambassador Factors Corp., 187 F.R.D.
148, 151 (S.D.N.Y. 1999) (quoting Local Civil Rule 6.3).
The standard for granting reconsideration is “strict”
and generally will be denied “‘unless the moving party
can point to controlling decisions or data that the court
overlooked--matters, in other words, that might reasonably
be expected to alter the conclusion reached by the court.’”
Meyer v. Kalanick, 185 F. Supp. 3d 448, 451-52 (S.D.N.Y.

39a
Appendix B
2016) (quoting Shrader v. CSX Transp., Inc., 70 F.3d 255,
257 (2d Cir. 1995)). Reconsideration is not, however, a
proper tool to repackage arguments and issues already
considered by the Court in deciding the original motion.
United States v. Gross, No. 98-CR-0159, 2002 U.S. Dist.
LEXIS 28159, 2002 WL 32096592, at *4 (E.D.N.Y. Dec.
5, 2002) (“A party may not use a motion to reconsider
as an opportunity to reargue the same points raised
previously.”). Nor is it proper to raise new arguments and
issues. Lehmuller v. Inc. Vill. of Sag Harbor, 982 F. Supp.
132, 135 (E.D.N.Y. 1997) (collecting cases).
II.	The Pending Motions
Upon review of Plaintiffs’ submissions, the Court
finds that they have failed to meet their burden. The
first three arguments concern the Court’s interpretation
of Buffalo Teachers’, the finding that NIFA acted
administratively, and the availability of court review. All
these issues were raised previously and addressed by the
Court in the April 2018 Order. Plaintiffs are attempting
to rehash the same arguments that this Court decided
previously, or focus on points they belatedly feel that
they may not have emphasized sufficiently in an attempt
to support arguments already rejected. They have not
raised any arguments warranting reconsideration of those
determinations.
Plaintiffs’ final argument concerns the impact of a
recent case by the New York Court of Appeals that was
decided after briefing in these three cases was completed,
but before the April 2018 Order was issued. See In re

40a
Appendix B
World Trade Ctr. Lower Manhattan Disaster Site Litig.,
30 N.Y.3d 377, 89 N.E.3d 1227, 67 N.Y.S.3d 547 (2017).
Although Plaintiffs did not seek to supplement their
briefing when this decision was issued, they now argue that
this case presents an intervening change in controlling
law that mandates a different result in these cases. The
Court disagrees.
In the World Trade Center case, the New York Court
of Appeals addressed a question certified by the Second
Circuit--whether a public benefit corporation should be
treated like the State for purposes of the capacity to
challenge the constitutionality of a state statute. World
Trade Center, 30 N.Y.3d at 383. This issue is not present
here, and thus the holding on the issue does not represent
an intervening change in controlling law affecting the
cases before this Court. The language in the World Trade
Center case cited by Plaintiffs is the court’s general
discussion of the nature of public corporations and derives
from earlier sources. See id. at 387-90. As Defendants note,
the Plaintiffs previously cited that language in its earlier
submissions. Accordingly, reliance on the World Trade
Center decision is simply another attempt to repackage
arguments from the prior, unsuccessful motions.
CONCLUSION
For the foregoing reasons, the following motions for
reconsideration are DENIED: Carver action, Docket
Entry 135; Donohue action, Docket Entry 77; Sullivan
action, Docket Entry 91.

41a
Appendix B
In case number 11-CV-2743, the Clerk of the Court is
directed to amend the caption to replace John Jaronczyk
with Brian Sullivan as outlined in footnote 1.
SO ORDERED
/s/ JOANNA SEYBERT
JOANNA SEYBERT, U.S.D.J.
Dated: August 8, 2018
Central Islip, New York

42a
Appendix C
APPENDIX C — MEMORANDUM
AND ORDER
OF THE UNITED STATES DISTRICT COURT FOR
THE EASTERN DISTRICT OF NEW YORK, FILED
APRIL 26, 2018
UNITED STATES DISTRICT COURT FOR THE
EASTERN DISTRICT OF NEW YORK
11-CV-1614(JS)(GRB); 11-CV-1900(JS)(GRB);
11-CV-2743(JS)(GRB)
JAMES CARVER, AS PRESIDENT OF THE
NASSAU COUNTY POLICE BENEVOLENT
ASSOCIATION, GARY LEARNED, AS PRESIDENT
OF THE SUPERIOR OFFICERS ASSOCIATION
OF NASSAU COUNTY, AND THOMAS R.
WILLDIGG, AS PRESIDENT OF THE NASSAU
COUNTY POLICE DEPARTMENT DETECTIVES’
ASSOCIATION, INC.,
Plaintiffs,
-againstNASSAU COUNTY INTERIM FINANCE
AUTHORITY, RONALD A. STACK, LEONARD D.
STEINMAN, ROBERT A. WILD, CHRISTOPHER
P. WRIGHT, GEORGE J. MARLIN, THOMAS W.
STOKES, IN THEIR OFFICIAL CAPACITIES
AS DIRECTORS/ MEMBERS OF THE NASSAU
COUNTY INTERIM FINANCE AUTHORITY;
EDWARD MANGANO, IN HIS OFFICIAL
CAPACITY AS COUNTY EXECUTIVE OF NASSAU
COUNTY; COUNTY OF NASSAU, AND GEORGE

43a
Appendix C
MARAGOS, IN HIS OFFICIAL CAPACITY AS
NASSAU COUNTY COMPTROLLER,
Defendants.
––––––––––––––––––––––––––––––
DANNY DONOHUE, AS PRESIDENT OF THE
CIVIL SERVICE EMPLOYEES ASSOCIATION,
INC., LOCAL 1000, AFSCMA, AFL-CIO, JERRY
LARICCHIUTA, AS LOCAL PRESIDENT OF
CSEA NASSAU COUNTY LOCAL 830, AND CIVIL
SERVICE EMPLOYEES ASSOCIATION, INC.,
LOCAL 1000, AFSCME, AFL-CIO,
Plaintiffs,
-againstNASSAU COUNTY INTERIM FINANCE
AUTHORITY; RONALD A. STACK, AS CHAIRMAN
AND DIRECTOR OF THE NASSAU COUNTY
INTERIM FINANCE AUTHORITY; GEORGE J.
MARLIN, LEONARD D. STEINMAN, THOMAS W.
STOKES, ROBERT A. WILD AND CHRISTOPHER
P. WRIGHT, AS DIRECTORS OF THE NASSAU
COUNTY INTERIM FINANCE AUTHORITY;
EDWARD MANGANO, IN HIS OFFICIAL
CAPACITY AS COUNTY EXECUTIVE OF NASSAU
COUNTY; AND GEORGE MARAGOS, IN HIS
OFFICIAL CAPACITY AS NASSAU COUNTY
COMPTROLLER, AND COUNTY OF NASSAU,
Defendants.

44a
Appendix C
––––––––––––––––––––––––––––––
JOHN JARONCZYK, AS PRESIDENT OF THE
NASSAU COUNTY SHERIFF’S CORRECTION
OFFICERS BENEVOLENT ASSOCIATION, INC.,
AND NASSAU COUNTY SHERIFF’S CORRECTION
OFFICERS BENEVLOENT ASSOCIATION, INC.,
Plaintiffs,
-againstNASSAU COUNTY INTERIM FINANCE
AUTHORITY; RONALD A. STACK, AS CHAIRMAN
AND DIRECTOR OF THE NASSAU COUNTY
INTERIM FINANCE AUTHORITY; GEORGE J.
MARLIN, LEONARD D. STEINMAN, THOMAS W.
STOKES, ROBERT A. WILD AND CHRISTOPHER
P. WRIGHT, AS DIRECTORS OF THE NASSAU
COUNTY INTERIM FINANCE AUTHORITY;
EDWARD MANGANO, IN HIS OFFICIAL
CAPACITY AS COUNTY EXECUTIVE OF NASSAU
COUNTY; AND GEORGE MARAGOS, IN HIS
OFFICIAL CAPACITY AS NASSAU COUNTY
COMPTROLLER, AND THE COUNTY OF NASSAU,
Defendants.
April 26, 2018, Decided;
April 26, 2018, Filed

45a
Appendix C
MEMORANDUM AND ORDER
SEYBERT, District Judge1:
The Plaintiffs in these cases are several employees’
unions. 2 They commenced these cases against Nassau
County Interim Finance Authority (“NIFA”) and its
Directors Ronald A. Stack, Leonard D. Steinman, Robert
A. Wild, Christopher P. Wright, George J. Marlin, Thomas
W. Stokes (collectively, the “NIFA Defendants”) and
Nassau County, County Executive Edward Mangano,
and County Controller George Maragos (collectively, the
“County Defendants”) alleging that a wage freeze ordered
by NIFA impaired collective bargaining agreements and/
or interest arbitration awards in violation of the Contracts
Clause of the United States Constitution. Currently before
the Court are motions for summary judgment brought
by Plaintiffs, and cross-motions for summary judgment
brought by the NIFA Defendants and the County
Defendants in each action. For the reasons set forth below,
1. These matters were re-assigned to the undersigned
effective April 9, 2018.
2. The Plaintiffs in 11-CV-1614 (the “Carver” case) are
the Nassau County Police Benevolent Association (“PBA”), the
Superior Officers Association of Nassau County (“SOA”), the
Nassau County Police Department Detectives’ Association, Inc.
(“DAI”), and their Presidents (collectively the “PBA Plaintiffs”).
The Plaintiffs in 11-CV-1900 (the “Donohue” case) are Civil
Service Employees’ Association units and their Presidents
(collectively, the “CSEA Plaintiffs”). The Plaintiffs in 11-CV-2743
(the “Jaronczyk” case) are the Nassau County Sheriff’s Correction
Officers Benevolent Association (“COBA”) and its President
(collectively, the “COBA Plaintiffs”).

46a
Appendix C
Plaintiffs’ motions are denied, and the Defendants’ crossmotions are granted.
BACKGROUND
I.

Factual History

The facts are taken from the parties’ Rule 56.1
Statements and supporting documents, and are undisputed
unless stated otherwise.
A.

The Parties

The individual plaintiffs in all three cases are named
in their capacities as presidents or former presidents of
their respective unions. The Plaintiff unions are each
recognized as the exclusive bargaining representative
for that organization: the PBA represents the County’s
uniformed police officers; the SOA represents the superior
officers of the County police departments; the DAI
represents detectives employed by the County; the CSEA
represents County employees; and COBA 3 represents
corrections officers and investigators at the County.
NIFA is a corporate governmental agency and
instrumentality of New York State that was created in
2000 by passage of the Nassau County Interim Finance
3. The name of the union in the Jaronczyk case is listed as
COBA for some unspecified time period and also as the Nassau
County Sheriff’s Officers Association (“SHOA”). The parties seem
to use the COBA and SHOA labels interchangeably. The Court will
use COBA to refer to these plaintiffs.

47a
Appendix C
Authority Act (“NIFA Act”). The individual NIFA
defendants are named in their official capacities as
Directors of NIFA. Beginning January 1, 2010, Defendant
Mangano was the County Executive for Nassau County,
and Defendant Maragos was the County Comptroller.
B. Passage of the NIFA Act
In the face of the County’s dire fiscal condition, the
state legislature in June 2000 passed the NIFA Act, which
was intended to assist the County to become fiscally stable
and to reform its financial practices. N.Y. Pub. Auth. Law
§ 3650 et seq. Through NIFA, the State provided over $105
million in bailout funds, and NIFA issued over $2 billion
in bonds for the County’s benefit. In return, the County’s
finances are subjected to oversight until the debt is retired.
The NIFA Act established three periods of oversight:
an initial interim finance period, followed by a monitoring
and review period, and under certain conditions, a
control period. NIFA is authorized to impose a control
period at any time that enumerated events occurred
or “a substantial likelihood and imminence of such
occurrence” existed. N.Y. Pub. Auth. Law § 3669(1). One
such enumerated event is that the County “shall have
incurred a major operating funds deficit of one percent
or more in the aggregate results of operations of such
funds during its fiscal year assuming all revenues and
expenditures are reported in accordance with generally
accepted accounting principles.” Id. NIFA terminates
a control period “when it determines that none of the
conditions which would permit the authority to impose a

48a
Appendix C
control period exist.” Id. One of the authorities granted
to NIFA during a control period is the power to declare a
fiscal crisis and impose a wage freeze upon a finding that
such a freeze “is essential to the adoption or maintenance
of a county budget or a financial plan.” Id.
The initial interim period of oversight ended in 2008.
NIFA began monitoring and review in 2009.
C.

Agreements and Interest Arbitration Awards

The Plaintiff unions have entered into various
collective bargaining agreements (“CBAs”) with the
County throughout the years. The agreements discussed
below are those relevant to the issues in this case.
The CSEA and the County have been parties to
numerous CBAs, including one with a term of January
1, 2003 to December 31, 2007. The parties had difficulty
negotiating a successor agreement and ultimately agreed
to interest arbitration to resolve their issue. On December
11, 2008, the interest arbitration panel issued an award
covering the period of January 1, 2008 to December 31,
2015 (the “CSEA Award”). In 2009 and 2010, the County
and the CSEA entered into supplemental agreements
providing for voluntary separation incentives, payroll lags,
and retirement incentives.
The County’s agreements with the three police unions,
the PBA, DAI, and COBA, also went before interest
arbitration panels. Each of these unions also agreed to
re-open its contracts and extend the term in exchange for

49a
Appendix C
union concessions. As to the PBA, an interest arbitration
panel issued an award in 2007 for the term of January
1, 2007 to December 31, 2012, which was then extended
by agreement through December 31, 2015. An interest
arbitration panel in 2008 issued an award regarding the
County’s agreement with the DAI covering the period
of January 1, 2007 to December 31, 2012, which was
subsequently extended through December 31, 2015. In
2009, an interest arbitration panel issued a contract for
SOA covering the years 2008 through 2013, and that
term was also extended through December 31, 2015 by
subsequent agreement in 2009.
COBA and the County were parties to a CBA dated in
March 2008 that covered the period from January 1, 2005
through December 31, 2012. A second agreement expired
on December 31, 2015. Both agreements included, inter
alia, wage increases, longevity payments, and increment
wage increases.
D.

New County Administration

Mangano, who ran for office on an anti-tax platform,
became County Executive on January 1, 2010. On his
first day in office, Mangano authorized the repeal of the
Home Energy Fuel Tax, a tax on residential energy use.
That tax produced revenue of approximately $20 million
in 2010, and had projected annual revenue of $40 million
in subsequent years. The County notes that the loss of
revenue from the repeal may have been offset by other
gains such as an increase in sales tax revenue. Also upon
Mangano’s inauguration, the County did not move forward

50a
Appendix C
with a planned cigarette tax and did not implement a
scheduled property tax increase.
In September 2010, the County presented a multiyear financial plan. In September 2010, NIFA issued
a Preliminary Staff Review of the Proposed MultiYear Financial Plan Fiscal 2011-2014 for its Directors.
(Donohue, Declaration of Aaron E. Kaplan (“Kaplan
Decl.”), Ex. 14 (“Review”), Docket Entry 65-6.) The
Review expressed concerns regarding the County’s
proposed plan, noting that it “relies on significant
State approvals, numerous revenue actions, passage of
ordinances by the County Legislature, extraordinary
levels of unacceptable borrowing for operating expenses,
and most importantly labor concessions that have not been
secured. Each of these factors must be viewed as having
a high degree of risk.” (Id., Overview at 1.) The Review,
noting that the County Legislature was still deliberating
and labor negotiations continued, ultimately recommended
that the Directors postpone commenting on the proposed
budget until more conclusive information was available.
(Id., Conclusion at 8.)
NIFA also established two changes to how it analyzed
the County’s fiscal health. Prior to September 2010, NIFA
had allowed the County to use budgetary accounting
procedures that were not in accordance with Generally
Accepted Accounting Procedure (“GAAP”). In September
2010, NIFA changed to the GAAP method with the result
that some revenues were reclassified to not count as
revenues, leading to an increase in budget deficits. The
County maintained that this created a “paper deficit” and

51a
Appendix C
that its traditional budget making process was acceptable.
Furthermore, NIFA had also previously permitted the
County to borrow money to pay property tax certiorari
judgments to residents. In 2010, NIFA prohibited this
practice, resulting in an increase to the deficit.
On October 30, 2010, the County Legislature passed
the FY 2011 budget including items previously found
to be at risk by NIFA. Documents submitted show that
during the fall of 2010 until January 2011, exchanges
took place between the County and NIFA regarding
the latter’s concerns about the FY 2011 budget and the
possibility that the County faced a one-percent deficit in
major operating funds. The County and NIFA discussed
refinancing and restructuring the County’s debt, but no
action was taken. At a NIFA meeting on December 30,
2010, NIFA allowed the County an additional month to
submit materials to it addressing the deficit. Over the next
month, the County provided information, and the CSEA
agreed to a restructured salary schedule and other costsavings measures.
E. NIFA’s Declaration of a Control Period
On January 26, 2011, NIFA issued Resolution No. 11
entitled “Declaration of a Control Period upon Finding
Likelihood and Imminence of a Deficit of More Than One
Percent in the County’s Fiscal Year 2011 Budget.” (Kaplan
Decl., Ex. 36.) In the attached Determination, NIFA
expressly stated that it was invoking its statutory authority
to impose a control period “upon its determination at any
time . . . that there exists a substantial likelihood and

52a
Appendix C
imminence of . . . a major operating funds deficit of one
percent or more in the aggregate results of operations of
such funds during its fiscal year . . . .” (Id., Determination
at 5 (quoting N.Y. Publ. Auth. Law § 3669(1)).) Resolution
No. 11 directed the County to submit a new plan for FY
2011 by February 15, 2011. NIFA did not declare a fiscal
emergency at this time.
On January 31, 2011, the County commenced a
proceeding in New York State Supreme Court challenging
NIFA’s decision to impose a control period, arguing that
NIFA lacked the authority to make that decision and
alternatively, that the decision was inappropriate and
unwarranted. On March 11, 2011, the state court denied
the County’s motion for a preliminary injunction, finding
that NIFA had the authority to declare a control period.
Cty. of Nassau v. NIFA, 33 Misc. 3d 227, 920 N.Y.S.2d 873
(Sup. Ct. 2011). The County’s claim that NIFA’s decision
was arbitrary and capricious was not decided, and the
court converted NIFA’s motion to dismiss that claim to a
motion for summary judgment and set a briefing schedule.
Soon after the decision denying a preliminary
injunction was issued, the County asked NIFA to exercise
its statutory authority to impose a wage freeze with
respect to County employees, including the Union member
Plaintiffs. On March 22, 2011, Mangano sent NIFA a
revised plan for FY 2011 which also included the request
for a wage freeze. On March 24, 2011, NIFA found that
the revised plan did not present a balanced budget. Among
other decisions, NIFA determined that a wage freeze was
essential to the County’s adoption and maintenance of a

53a
Appendix C
budget for FY 2011. (NIFA Resolution No. 11-303, Kaplan
Decl. Ex. 39.) NIFA went on to declare a fiscal crisis in the
County and impose a wage freeze. (NIFA Resolution No.
11-304, Kaplan Decl. Ex. 39.) Resolution 11 304 ordered
that “all increases in salary or wages of employees of the
County, which will take effect after the date of this order
pursuant to collective bargaining agreements, other
analogous contracts, or interest arbitration awards, now in
existence or hereafter entered into, requiring such salary
increases as of any date thereafter are suspended.” (Id.)
It further suspended increased payments for holiday and
vacation differentials, shift differentials, and step-ups.
The duration of the wage freeze was for one year.4
On March 29, 2011, the County announced it was
abandoning its state court proceeding against NIFA. The
Plaintiffs commenced these actions shortly thereafter,
arguing that there were other options, including raising
taxes and cost-savings measures, that were available to
the County and that defendants should have pursued those
other options before implementing a wage freeze against
the unionized workers.
II. Procedural History
The Carver case was filed on April 1, 2011, and the
Donohue and Jaronczyk cases followed on April 18, 2011
and June 7, 2011, respectively. Plaintiffs in all three cases
asserted a claim under the contracts clause of the United
4. On March 22, 2012, NIFA determined that the fiscal crisis
still existed and continued the wage freeze for another year.

54a
Appendix C
States Constitution. In addition, Plaintiffs in Donohue
and Jaronczyk asserted a due process claim arising when
their property rights were affected without notice or
an opportunity to be heard in violation of the Fifth and
Fourteenth Amendments to the U.S. Constitution. The
Donohue and Jaronczyk complaints also included state
law claims of violations of New York Public Authorities
Law § 3669(3)(b) and of Article 5, § 7 of the New York
State Constitution. 5
The cases as originally commenced also contained a
claim that NIFA’s authority to impose a wage freeze was
limited to the interim finance period. By Memorandum and
Order dated February 14, 2013, District Judge Leonard D.
Wexler granted summary judgment for Plaintiffs in the
Carver action on the lone ground that NIFA’s imposition
of the wage freeze exceeded its authority under the NIFA
Act. Carver v. NIFA, 923 F. Supp. 2d 423 (E.D.N.Y. 2013).
The federal contracts clause claim was not addressed. The
Donohue and Jaronczyk cases and motion practice were
held in abeyance pending a decision on the appeal of the
Carver decision.
On appeal, the Second Circuit vacated Judge
Wexler’s decision, determining that the case presented an
unresolved question of state law that was more properly
addressed by the state court. Carver v. NIFA, 730 F.3d
150 (2d Cir. 2013). It remanded the case with directions to
5. In light of the state court ruling, Plaintiffs in Donohue and
Jaronczyk requested, with defendants’ consent, that their original
complaints be considered the operative pleadings. That request
was granted. (See Minute Order of Feb. 14, 2017.)

55a
Appendix C
dismiss the state law claim, but retain jurisdiction over the
federal claim. On remand, Judge Wexler stayed the federal
action pending completion of state court proceedings
commenced in Nassau County. See Carver, 11-CV-1614,
Docket Entry 105.
All the Plaintiffs commenced actions in state court
regarding NIFA’s wage freeze authority. The New York
State Supreme Court determined that NIFA had the
statutory authority to impose the wage freezes during
a control period, and the Appellate Division affirmed
that determination. See Carver v. NIFA, 142 A.D.3d
1003, 1008, 38 N.Y.S.3d 197 (App. Div. 2d Dep’t), leave to
appeal denied, 28 N.Y.3d 911, 69 N.E.3d 1022, 47 N.Y.S.
2d 226 (2016) (Table). The state cases having concluded,
the parties in all three cases requested that the federal
actions be reopened and the federal constitutional claim
resolved. In light of the passage of time and intervening
decisions, Judge Wexler directed that the motions and
cross-motions be re-briefed. Those re-filed motions are
currently before the Court.
The briefing is entirely focused upon Plaintiffs’ claims
of violations of the contracts clause in which they argue
that the wage freeze acted to impair agreements between
the unions and Nassau County. The lone federal cause
of action remaining in the Carver action is the contracts
clause claim as it appears that the state claims were
resolved in the state court action. On April 12, 2018, the
Plaintiffs in Donohue and Jaronczyk were directed to
advise the Court as to whether they intended to pursue
any claims from their original complaints in addition to

56a
Appendix C
the contracts clause claims. Counsel in both cases have
advised the Court that the sole claim remaining is the
contracts clause claim, and that they do not intend to
pursue any other claim. (See Donohue, Docket Entry 74;
Jaronczyk, Docket Entry 88.)
DISCUSSION
I.

Legal Standards

Pursuant to Rule 56 of the Federal Rules of Civil
Procedure, summary judgment is appropriate only if
“the movant shows that there is no genuine dispute as to
any material fact and the movant is entitled to judgment
as a matter of law.” Fed. R. Civ. P. 56(a); see Anderson
v. Liberty Lobby, Inc., 477 U.S. 242, 247-48, 106 S. Ct.
2505, 106 L. Ed. 2d 202 (1986). In determining a motion
for summary judgment, the court “is not to weigh the
evidence but is instead required to view the evidence in
the light most favorable to the party opposing summary
judgment, to draw all reasonable inferences favor of that
party, and to eschew credibility assessments.” Amnesty
Am. v. Town of W. Hartford, 361 F.3d 113, 122 (2d Cir.
2004). After the moving party has met its burden, the
opposing party “‘must do more than simply show that
there is some metaphysical doubt as to the material
facts. . . . [T]he nonmoving party must come forward
with specific facts showing that there is a genuine issue
for trial.’” Caldarola v. Calabrese, 298 F.3d 156, 160 (2d
Cir. 2002) (quoting Matsushita Elec. Indus. Co. v. Zenith
Radio Corp., 475 U.S. 574, 586-87, 106 S. Ct. 1348, 89 L.
Ed. 2d 538 (1986)).

57a
Appendix C
II. Contracts Clause Claims
The contracts clause provides, in pertinent part,
that “no state shall . . . pass any . . . Law impairing the
Obligation of Contracts. . .” U.S. Const., A rt. I, § 10, cl. 1.
Although the language appears mandatory and absolute,
courts have acknowledged that some impairment is
Constitutionally-permissible. See, e.g., Condell v. Bress,
983 F.2d 415, 417 (2d Cir. 1993). The state may, in an
exercise of its police power, abridge a contract when that
impairment is “reasonable and necessary to serve an
important public purpose.” United States Trust Co. v.
New Jersey, 431 U.S. 1, 25, 97 S. Ct. 1505, 52 L. Ed. 2d 92
(1977). To determine whether a law impermissibly impairs
a contract, a court considers whether the impairment is
substantial, whether the law serves a legitimate public
purpose, and if so, “are the means chosen to accomplish
this purpose reasonable and necessary.” Buffalo Teachers
Fed’n v. Tobe, 464 F.3d 362, 368 (2d Cir. 2006).
It is clear, however, that the contracts clause “prohibits
the impairment by the state of existing contracts” but does
not apply to contracts created after the allegedly-offensive
law was enacted. Fabri v. United Techs. Int’l, Inc., 387
F.3d 109, 124 (2d Cir. 2004) (emphasis in original); see also
Kinney v. Conn. Judicial Dep’t, 974 F.2d 313, 315 (2d Cir.
1992) (“of course, the offending statute necessarily must
be enacted after the contract in question has come into
effect”). The sequence of the timing of the union contracts
and the legislation raises a threshold question in this
case. The NIFA Act was passed by the state legislature
in June 2000, the agreements and/or interest arbitration
awards affected by the wage freeze were entered into on

58a
Appendix C
various dates between 2007 and 2010, and NIFA declared
a fiscal crisis and imposed a wage freeze on March 24,
2011. Defendants argue that the relevant offending statute
was the NIFA Act and thus there is no contracts claim as
to the subsequent agreements; Plaintiffs argue that the
wage freeze decision was the “law” and that the impaired
agreements were entered into prior to that ruling. The
Court must first determine whether the legislative act
from which Plaintiffs’ claims arise was the passage of the
NIFA Act by the state legislature or the imposition of the
wage freeze by NIFA.
A.

The NIFA Act and Formation of NIFA

In June 2000, the New York State legislature created
NIFA “in response to the growing financial crisis facing
Nassau County.” Carver, 730 F.3d 150, 152 (2d Cir.
2013); see NIFA Act, N.Y. Pub. Auth. Law § 3650 et seq.
NIFA was created as a “corporate governmental agency
and instrumentality of the state constituting a public
benefit corporation.” N.Y. Pub. Auth. Law § 3652 (1). A
public benefit corporation “is a corporation organized
to construct or operate a public improvement wholly or
partly within the state, the profits from which inure to the
benefit of this or other states, or to the people thereof.”
N.Y. Gen. Constr. Law § 66. The NIFA Act indicated that
“the creation of the authority and the carrying out of its
corporate purposes are in all respects for the benefit of the
people of the state of New York and are public purposes.”
N.Y. Pub. Auth. Law § 3661.
The NIFA Act authorizes NIFA to impose a “control
period” in the event of various occurrences including

59a
Appendix C
a major operating funds deficit. N.Y. Pub. Auth. Law §
3669. During a control period, NIFA is authorized to
declare a fiscal crisis, and thereafter, a wage freeze.
Specifically, NIFA “shall be empowered to order that all
increases in salary or wages of employees of the county
and employees of covered organizations which will take
effect after the date of the order pursuant to collective
bargaining agreements, other analogous contracts or
interest arbitration awards, now in existence or hereafter
entered into, requiring such salary increases as of any
date thereafter are suspended.” N.Y. Pub. Auth. Law
§ 3669.
B. Analysis of NIFA’s wage freeze
The contracts clause’s prohibition “is aimed at the
legislative power of the State, and not at the decisions of
its courts, or the acts of administrative or executive boards
or officers, or the doings of corporations or individuals.”
New Orleans Water-Works Co. v. La. Sugar Refining Co.,
125 U.S. 18, 30, 8 S. Ct. 741, 31 L. Ed. 2d 607 (1888). “Any
enactment, such as a by-law or ordinance of a municipal
corporation, to which a state gives the force of law, is a
statute of the state within the meaning of the Contract
Clause.” Montauk Bus Co. v. Utica City Sch. Dist., 30 F.
Supp. 2d 313, 319 (N.D.N.Y. 1998) (citing New Orleans
Water-Works, 125 U.S. at 31). Thus, the Court must
determine whether NIFA was acting legislatively or
administratively when it imposed the wage freeze.
There is nothing in the record to indicate that NIFA
is itself a legislative body. See Schulz v. Kellner, No.

60a
Appendix C
07-CV-0943, 2011 U.S. Dist. LEXIS 73088, 2011 WL
2669456, at *9 (N.D.N.Y. July 7, 2011) (no contracts clause
claim because Defendant-Commissioners of NY Board
of Elections “are not legislative bodies and therefore are
not proper parties in an action pursuant to the Contracts
Clause”). Further, the imposition of the wage freeze
does not appear to be a legislative act. NIFA did not hold
hearings, promulgate a law or ordinance, or create new
legal standards when it acted. See generally Matter of
Alca Indus. v. Delaney, 92 N.Y.2d 775, 778, 709 N.E.2d
97, 686 N.Y.S.2d 356 (1999) (distinguishing decisions
based on individual circumstances from creation of a rule
that “implement[s] a standard or procedure that directs
what action should be taken regardless of individual
circumstances”). Instead, it exercised statutory authority
given to it by the state legislature under the NIFA Act.
Put in other words, the State exercised its authority in
passing the NIFA Act, and NIFA’s imposition of the wage
freeze was not a separate legislative action, but only an
application of previously created law. As such, NIFA’s
actions are administrative in nature. See, e.g., Waltz v.
Bd. of Ed. of Hoosick Falls Cent. Sch. Dist., No. 12-CV0507, 2013 U.S. Dist. LEXIS 129089, 2013 WL 4811958,
at *8 (N.D.N.Y. Sept. 10, 2013) (school board act approving
CBA after a vote not a legislative act under the contracts
clause); Chaffer v. Bd. of Ed. of City Sch. Dist., 229 F.
Supp. 2d 185, 191 (E.D.N.Y. 2002) (school board’s decision
to terminate an employment contract not a legislative
act); Jamaica Ash & Rubbish Removal Co. v. Ferguson,
85 F. Supp. 2d 174, 183-84 (E.D.N.Y. 2000) (act taken by
Trade Waste Commission was “nothing more than an
administrative act, carried out by a commission authorized
and created by New York City law”).

61a
Appendix C
In declaring a fiscal crisis and imposing the wage
freeze, NIFA did not create a “new rule,” but merely
exercised authority delegated to it by the legislature in
2000. Such an exercise does not fall within the contract
clause’s prohibition. See Tocci Bros., Inc. v. City of N.Y.,
No. 00-CV-0206, 2000 U.S. Dist. LEXIS 10948, 2000 WL
1134367, at *9 (E.D.N.Y. Aug. 3, 2000) (administrative acts
taken pursuant to legislative authority do not implicate
the contracts clause or else “every administrative action
would become subject to the Contracts Clause, a result
clearly prohibited by controlling precedent.”); W. 95 Hous.
Corp. v. N.Y. City Dep’t of Hous. Pres. & Dev., No. 01-CV1345, 2001 U.S. Dist. LEXIS 7784, 2001 WL 664628, at
*8 (S.D.N.Y. June 12, 2001), aff’d, 31 F. App’x 19 (2d Cir.
2002) (City agency’s interpretation of regulations was not
an act of legislation and thus could not form the basis of
a contract clause claim); Jamaica Ash, 85 F. Supp. 2d at
183 (granting of license by a commission bore “none of
the hallmarks of a legislative act; it was an application of
the law, not the creation of a law”). The NIFA Act itself
acknowledges that the state legislature was conferring
NIFA with specific powers by stating that NIFA would
perform “an essential governmental function in the
exercise of the powers conferred upon it by this title,”
not the creation of such powers. N.Y. Pub. Auth. Law
§ 3661 (emphasis supplied). The wage freeze authority is
one of those powers expressly granted by the state. See
also Carver, 142 A.D.3d at 1008 (“the legislature clearly
and unequivocally conferred wage freeze authority upon
NIFA during control periods”).

62a
Appendix C
The Buffalo Teachers case addressed a similar
situation regarding the actions of a state-created fiscal
board. There, the state legislature, to address a severe
fiscal crisis in the city of Buffalo, passed the Buffalo Fiscal
Stability Authority Act (the “BFSA Act”), which created
the Buffalo Fiscal Authority (“BFA”) and gave it various
authority including, inter alia, the power to impose a wage
and/or hiring freeze. Buffalo Teachers, 464 F.3d at 366.
Within months of its establishment, the BFA imposed a
wage freeze. Unlike the cases currently before this Court,
however, the BFA’s wage freeze impacted union contracts
that had been negotiated and executed before the state
legislature had passed the legislation that created the
BFA. As the contracts at issue existed before both the
BFSA Act and the wage freeze by the BFA, the Second
Circuit was not called upon to directly address whether
the BFA’s wage freeze was a separate legislative act.
In dicta, however, the Second Circuit clearly treated
the BFSA Act as the legislation that impaired the preexisting contracts--“[t]he New York legislature had a
legitimate public purpose in passing the [BFSA] Act
and its wage freeze power.” Id. at 368. Another court
addressing the BFA’s actions was more direct about the
administrative nature of that board’s acts. See Foley v.
Masiello, 38 A.D.3d 1201, 833 N.Y.S.2d 342 (4th Dep’t
2007). Although the basis of the motion in that case was
application of the appropriate statute of limitations, the
court clearly stated that the BFA’s “action in imposing the
wage freeze was administrative rather than legislative
given its individualized application, limited duration, and
informal adoption, i.e., resolution by the governing body.”
Id. at 1202 (internal quotation and citations omitted).

63a
Appendix C
NIFA was exercising authority granted to it by the
state legislature. This exercise was administrative, not
legislative, and thus cannot form the basis of a contracts
clause claim. As the NIFA Act, the enabling statute, was
passed into law prior to the affected union contracts,
there can be no contracts claim on that basis either.6
Accordingly, defendants’ motions for summary judgment
are granted, and all Plaintiffs’ cross-motions are denied.
CONCLUSION
The cases and pending motions are resolved as follows:
• 11-CV-1614 Carver action: Plaintiffs’ motion, Docket
Entry 116, is DENIED; Defendants’ cross-motions,
Docket Entries 114 and 115, are GRANTED.
• 11-CV-1900 Donohue action: Plaintiffs’ motion,
Docket Entry 65, is DENIED; Defendants’ crossmotions, Docket Entries 66 and 69, are GRANTED.
6. Plaintiffs argue that a ruling that the contracts clause
does not apply would leave them without a remedy. The wage
freeze power was expressly authorized by NIFA Act. Plaintiffs
could have commenced an Article 78 proceeding in state court
to determine whether the exercise of that authority by NIFA in
2011 was reasonable. As Plaintiffs do not apparently challenge the
constitutionality of the NIFA Act but rather only its application
to its members, they had the option to challenge the wage freeze
in an article 78 proceeding, which “is generally the proper vehicle
to determine whether a statute, ordinance, or regulation has been
applied in an unconstitutional manner.” Kovarsky v. Hous. & Dev.
Admin. of City of N.Y., 31 N.Y.2d 184, 191, 286 N.E. 2d 882, 335
N.Y.S.2d 383 (1972).

64a
Appendix C
• 11-CV-2743 Jaronczyk action: Plaintiffs’ motion,
Docket Entry 75, is DENIED; Defendants’ crossmotions, Docket Entries 79 and 80, are GRANTED.
In each case, the Clerk of the Court is directed
to enter judgment in favor of Defendants and against
Plaintiffs and to mark the case closed.
SO ORDERED
/S/ JOANNA SEYBERT
JOANNA SEYBERT, U.S.D.J.
Dated: April 26, 2018
Central Islip, New York

65a
AppendixOF
D REHEARING OF
APPENDIX D — DENIAL
THE UNITED STATES COURT OF APPEALS FOR
THE SECOND CIRCUIT, DATED MAY 29, 2020
UNITED STATES COURT OF APPEALS
FOR THE SECOND CIRCUIT
Docket Nos. 18-1587(L), 18-1606(Con), 18-1634(Con).
At a Stated Term of the United States Court of
Appeals for the Second Circuit, held at the Thurgood
Marshall United States Courthouse, 40 Foley Square,
in the City of New York, on the 29th day of May, two
thousand twenty,
Before:
Guido Calabresi,
		
Raymond J. Lohier, Jr.,
		
Michael H. Park,
			Circuit Judges.
BRIAN SULLIVAN, AS PRESIDENT OF THE
NASSAU COUNTY SHERIFF’S CORRECTION
OFFICERS BENEVOLENT ASSOCIATION,
NASSAU COUNTY SHERIFF’S CORRECTION
OFFICERS BENEVOLENT ASSOCIATION, JAMES
CARVER, AS PRESIDENT OF THE NASSAU
COUNTY POLICE BENEVOLENT ASSOCIATION,
GARY LEARNED, AS PRESIDENT OF THE
SUPERIOR OFFICERS ASSOCIATION OF
NASSAU COUNTY, THOMAS R. WILLDIGG, AS
PRESIDENT OF THE NASSAU COUNTY POLICE
DEPARTMENT DETECTIVES’ ASSOCIATION,
INC., JERRY LARICCHIUTA, AS LOCAL

66a
Appendix D
PRESIDENT OF CSEA NASSAU COUNTY LOCAL
830, DANNY DONOHUE, AS PRESIDENT OF THE
CIVIL SERVICE EMPLOYEES ASSOCIATION,
INC. LOCAL 1000, AFSCME, AFL-CIO, CIVIL
SERVICE EMPLOYEES ASSOCIATION,
LOCAL 1000 AFSCME, AFL-CIO,
Plaintiffs-Appellants,
v.
NASSAU COUNTY INTERIM FINANCE
AUTHORITY, RONALD A. STACK, AS CHAIRMAN
AND DIRECTOR OF THE NASSAU COUNTY
INTERIM FINANCE AUTHORITY, GEORGE J.
MARLIN, LEONARD D. STEINMAN, THOMAS
W. STOKES, ROBERT A. WILD, CHRISTOPHER
P. WRIGHT, AS DIRECTORS OF THE NASSAU
COUNTY INTERIM FINANCE AUTHORITY,
EDWARD MANGANO, IN HIS OFFICIAL
CAPACITY AS COUNTY EXECUTIVE OF NASSAU
COUNTY, GEORGE MARAGOS, IN HIS OFFICIAL
CAPACITY AS NASSAU COUNTY COMPTROLLER,
Defendants-Appellees.
ORDER
Appellants having filed a petition for panel rehearing
and the panel that determined the appeal having
considered the request,

67a
Appendix D
IT IS HEREBY ORDERED that the petition is
DENIED.
For The Court:
Catherine O’Hagan Wolfe,
Clerk of Court

